  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACAT                  Acquisition Category
OICW                  Objective Individual Combat Weapon
                                   INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704


                                                                                      October 7,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY. AND LOGISTICS
               ASSISTANT SECI~ETARYOF DEFENSE (NETWORK AND
                 INFORMATION INTEGRATION)
               DIRECTOR, OPERATIONAL TEST AND EVALUATION
               DIRECTOR, PROGRAM ANALYSIS AND EVALUATION
               DIRECTOR, JOWT STAFF
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the Acquisition of the Objective Individual Combat Weapon
        (Report No. D-2006-004) (U)

        (U) We are providing this report for review and comment. This report is the first
in a series of reports on the overall management of the Objective Individual Combat
Weapon. We considered management comments on a draft of this report when preparing
the final report.
       (U) DoD Directive 7650.3 requires that all recommendations be resolved
promptly. As a result of management comments, we revised Recommendation 1. by
adding Recommendation 1.b. to clarify o w intention. Therefore, we request that the
Under Secretary of Defense for Acquisition, Technology, and Logistics; the Assistant
Secretary of Defense (Network and Information Integration); and the Director,
Operational Test and Evaluation provide comments on Recommendation 1.b.; that the
Under Secretary also provide comments on Recommendation 1. a.; and that the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) provide additional
comments on Recommendations 3.a. and 3.b. by November 7,2005.
       (U) We appreciate the courtesies extended to the staff. Questions should be
directed to Mr. John E. Meling at (703) 604-9091 @SN 664-9091) or Mr. Jack D. Snider
at (703) 604-9087 (DSN 664-9087). See Appendix I for the report distribution. The
team members are listed inside the back cover.
                  By direction of the Deputy Inspector General for Auditing:



                                           Mary L. Ugone
                           Acquisition and Technology Management


This special version of the report has been revised to omit attorney client privilege, predecisional,
and source selection sensitive data.
                     Department of Defense Office of Inspector General
Report No. D-2006-004                                                   October 7, 2005
      Project No. D2005-D000AE-0021

            Acquisition of the Objective Individual Combat Weapon (U)
                                       Executive Summary (U)
(U) Who Should Read This Report and Why? DoD and military personnel involved
in the management, support, and acquisition of the Objective Individual Combat Weapon
(OICW) and acquisition officials responsible for managing acquisition programs should
read this report because it discusses oversight issues that must be addressed before the
program progresses further through the acquisition process.

(U) Background. This report is the first in a series of reports on the overall
management of the OICW Increments I, II, and III. Because the Army issued a request
for proposal for the development and production of Increment I before the program
entered the system development and demonstration phase of the acquisition process, we
evaluated whether management was complying with the required acquisition procedures.
The OICW is a dual engagement weapon: its primary subsystem fires a *************
airbursting munition and its secondary subsystem fires the standard **************
munition. The Army designed the OICW Increment I, valued at about ********* in
FY 2005 dollars, as a ***********************************************
throughout the U.S. Army.

(U) Results. The Army issued the request for proposal before the program entered the
system development and demonstration phase and before the Army completed key
required program documentation needed for decision making; before it determined the
appropriate acquisition category that, as a matter of classification, would highlight the
level of proposed investment and importance to the DoD; and before it resolved issues
with the OICW operational requirements document, which had not identified a
requirement for a family of weapons. On May 27, 2005, we sent a memorandum to the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) suggesting that
he suspend the request for proposal until the OICW Program rectified the above tasks. In
response to the memorandum, the Assistant Secretary suspended the request for proposal
on July 19, 2005, until the Joint Requirements Oversight Council convenes to complete
the Joint Capabilities Integration and Development System process for the OICW
capability development document. Until the Army completes those tasks, it cannot be
assured that the OICW satisfies warfighter needs, with measurable improvements to
mission capability and operational support, in a timely manner. The Under Secretary of
Defense for Acquisition, Technology, and Logistics needs to designate the OICW as an
Acquisition Category ID major Defense acquisition program. Further, the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) needs to complete an
analysis of alternatives for the OICW. In addition, the Assistant Secretary needs to
enforce the existing management controls associated with the OICW Program and
suspend or terminate the request for proposal until the program is in compliance with
required acquisition procedures. Lastly, the Joint Requirements Oversight Council
should not approve the OICW capability development document until the Office of the
Director, Program Analysis and Evaluation prepares the initial guidance for the analysis
of alternatives and reviews the analysis plan and the final analysis products. (See the
Finding section of the report for the detailed recommendations.)

*
    (U) Predecisional and source selection sensitive data omitted.
(U) The management control program that we reviewed for the OICW did not ensure
that the Army addressed weaknesses associated with program documentation, acquisition
category classification, and OICW capability requirements. The Office of the Secretary
of Defense and the Army should implement the corresponding management controls in
the DoD 5000 series and the applicable Army regulations to correct those weaknesses.

(U) Management Comments and Audit Response. On July 27, 2005, the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) issued a memorandum in
which he stated that his office was working the issues discussed in our May 27, 2005,
memorandum and expected to resolve all issues before the system development and
demonstration milestone decision in the third quarter of FY 2006. See Appendixes C and
D for our memorandum and the Assistant Secretary’s comments, respectively.

(U) Our August 16, 2005, draft report restated our position on issues in the May 27,
2005, memorandum that required completion. We received comments from the Director,
Defense Systems, responding for the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology); the Principal Deputy Director, Program Analysis and Evaluation; the
Director for Force Structure, Resources, and Assessment, responding for the Chairman,
Joint Requirements Oversight Council; and the Army Deputy General Counsel
(Acquisition), Department of the Army Office of the General Counsel.

(U) The Director, Defense Systems partially concurred with the recommendation to
designate the OICW as an Acquisition Category ID major Defense acquisition program.
The Assistant Secretary nonconcurred with the recommendation to enforce the existing
management controls associated with the OICW Program because he believed that they
had implemented appropriate controls. He stated that his office suspended the request for
proposal and would not release it until the Joint Requirements Oversight Council
completes its review. The Principal Deputy Director concurred with the recommendation
to direct the Assistant Secretary to complete an analysis of alternatives for the OICW. He
also agreed with the draft report and the remaining recommendations not specifically
addressed to him. The Director for Force Structure, Resources, and Assessment
concurred with the recommendation to not approve the OICW capability development
document until the Office of the Director, Program Analysis and Evaluation completed
its oversight review. The Army Deputy General Counsel addressed two separate legal
opinions by his office concerning the OICW Program and stated that they were consistent
with each other when viewed in their proper context. (See the Finding section of the
report for a discussion of the management comments and the Management Comments
section of the report for the complete text of the comments.)

(U) In response to the comments by the Director, Defense Systems and the Assistant
Secretary of the Army and to obtain intended corrective action, we revised and added a
recommendation to change DoD Instruction 5000.2 to require the milestone decision
authority to authorize the initiation of a new acquisition program before the program
office can issue a request for proposal. Therefore, we request that the Under Secretary of
Defense for Acquisition, Technology, and Logistics, in coordination with the Assistant
Secretary of Defense (Network and Information Integration) and the Director,
Operational Test and Evaluation, respond to the new recommendation. In addition, we
request that the Under Secretary review his office’s position on the acquisition category
for the OICW and that he, not his staff, comment on the final report. We also request that
the Assistant Secretary of the Army comment on the recommendations concerning
management controls and the request for proposal. The comments on this report should
be provided by November 7, 2005.



                                            ii
Table of Contents
Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       4

Managers’ Internal Control Program                                               5

Finding
     Program Management of the Objective Individual Combat Weapon                7

Appendixes
     A. Scope and Methodology                                                   27
          Prior Coverage                                                        28
     B. Glossary                                                                29
     C. DoD Office of Inspector General Memorandum Concerning Request
          for Proposal                                                          36
     D. Assistant Secretary of the Army (Acquisition, Logistics, and
          Technology) Response to DoD Office of Inspector General
          Memorandum                                                            39
     E. Audit Response to Assistant Secretary of the Army (Acquisition,
          Logistics, and Technology) Comments on DoD Office of Inspector
          General Memorandum                                                    43
     F. Project Manager Soldier Weapons Memorandum for XM8 Carbine              48
     G. Program Executive Officer Soldier Acquisition Decision
          Memorandum for XM8 Carbine                                            50
     H. Response to the Office of the Secretary of Defense and the Department
          of the Army Comments Concerning the Report                            52
     I. Report Distribution                                                     75

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics      77
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   79
     Director, Program Analysis and Evaluation                                  91
     Joint Staff                                                                92
     Department of the Army General Counsel                                     94
                              XM29 Integrated Airburst
                                 Weapon System
                            (Original Operational Requirements
                                        Document)




Carbine, Special Compact, Designated                      XM25 Airburst Weapon System
 Marksman, and Light Machine Gun                          (Capabilities Development Document
                                                                      Increment II)
   (Capabilities Development Document
                Increment I)




                            XM29 Integrated Airburst
                               Weapon System
                              (Capabilities Development
                              Document Increment III)



      Source: Project Manager Soldier Weapons

      Incremental Strategy for the Objective Individual Combat Weapon (U)
Background (U)
            (U) This report is the first in a series of reports on the overall management of the
            Objective Individual Combat Weapon (OICW) Increments I, II, and III. Because
            the Army issued a request for proposal for the development and production of the
            OICW Increment I before the program entered the system development and
            demonstration phase of the acquisition process,1 we evaluated whether
            management was complying with required acquisition procedures. The OICW is
            a dual engagement weapon: its primary subsystem fires a ***************
            airbursting munition and its secondary subsystem fires the standard ******
            ****** munition. The Army designed the OICW Increment I as a ************
            ****************************************** throughout the U.S. Army.
            The OICW Program has been on the Director, Operational Test and Evaluation
            Oversight List since 1996 and therefore was subject to approval of test strategy
            and test plans and review of operational test and evaluation results by the Office
            of the Director, Operational Test and Evaluation. Appendix B is a glossary of
            technical terms used in this report.

            (U) Program Executive Office Soldier. The Program Executive Office Soldier
            is the materiel developer of the OICW Program. The Program Executive Office
            Soldier’s mission is to arm and equip soldiers to dominate the full spectrum of
            peace and war, now and in the future. Reporting to the Program Executive Office
            Soldier is the Project Manager Soldier Weapons who ensures that soldiers have
            needed weapons capabilities on present and future battlefields and maintains
            weapons’ readiness for the Army through intensive management of the full
            acquisition lifecycle. Reporting to the Project Manager Soldier Weapons is the
            Product Manager Individual Weapons who maintains and improves existing
            individual weapons, such as rifles, carbines, pistols, and grenade launchers for the
            Army and other Military Departments.

            (U) OICW Mission Need Statement. In December 1993, the Assistant Deputy
            Chief of Staff of the Army for Operations and Plans, Force Development
            approved the OICW mission need statement that identified the requirement to
            engage primary targets, such as personnel protected with body armor or in
            improvised fortifications and tactical vehicles, and secondary targets, such as light
            armor and slow moving aircraft. The U.S. Army Infantry Center, who is the user
            representative, ***************************************************
            ******************************************************************
            ****************
1
    (U) A request for proposal is a solicitation used in negotiated acquisitions to communicate Government
    requirements to prospective contractors. Based on prudent business judgment, a request for proposal
    should not be issued until after a program enters the system development and demonstration phase of the
    acquisition process and complies with applicable statutory and regulatory requirements, including
    approved requirements and program goals. However, the OICW was not ready to enter the system
    development and demonstration phase because the required capability had not been approved; the
    required statutory and regulatory documents had not been prepared; and the program goals for the
    minimum number of cost, schedule, and performance parameters that describe the program over its life
    cycle had not been established.
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        1
            ******************************************************************
            ********************************************************

            (U) OICW Operational Requirements Document. In February 2000, the
            Army approved the OICW operational requirements document for the dual
            engagement weapon *************************************************
            ****************. In March 2000, the milestone decision authority approved
            the OICW as a new acquisition program.
            **************************************************
            ******************************************************************
            *******************. In August 2000, the Picatinny Center for Contracting
            and Commerce awarded a contract for the development of the OICW (XM29).

            (U) Change in Acquisition Strategy. In September 2001, when the OICW
            (XM29) did not meet the threshold for the weight key performance parameter, *
            ******************************************************************
            *************************************************.
            *************************************************************** *
            *************

            (U) On September 9, 2002, the Project Manager Soldier Weapons, as the materiel
            developer, initiated an urgent requirement for the development of the XM8
            Lightweight Carbine, which was based on the ongoing requirement of the
            Program Executive Office Soldier to lighten the weight of equipment carried by
            warfighters. On September 13, 2002, the Project Manager Soldier Weapons,
            citing the urgent requirement, had the OICW contract modified to develop the
            XM8 (Increment I). ******************************************
            ***********************************************************
            **************************************************************
            **************************************************************
            *******************.

            (U) Incremental Evolutionary Development. In January 2003, the Program
            Executive Officer Soldier briefed the Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology) on a new approach for incrementally
            developing the OICW subsystems by maturing two separate-but-parallel
            capabilities: the kinetic energy system (XM8 [Increment I]) and the stand-alone,
            high explosive, airbursting system (XM25 [Increment II]). ************
            ****************************************************************
            ******************. *********************************************
            *********************************************************2 ****
            *****************************************************************
            *********************************. ****

*
    (U) Predecisional and source selection sensitive data omitted.
2
    (U) On April 1, 2005, the Army reorganized the Army Deputy Chief of Staff (G-3) into the Army Deputy
    Chief of Staff (G-3/5/7) responsible for operations, strategic plans and policy, force management,
    training, battle command, and capabilities integration. The reorganization was retroactively effective on
    November 16, 2004.


                                                        2
            **************************************************************
            *****************************************************************
            *********************

            ********************************************************
            (U)************************************************************
            *****************************. In September 2004, the Army Deputy Chief
            of Staff (G-3) issued a memorandum, “Analysis Supporting Objective Individual
            Combat Weapon (OICW) Increment I Milestone (MS) B Decision,” to the Army
            Training and Doctrine Command, initiating the analysis of alternatives. By then,
            Increment I had been expanded to include four weapons variants, or a family of
            weapons.

            **************************************************************
            (U)********************************************************* *even
            though the OICW mission need statement and the February 2000 operational
            requirements document did not identify a need for a family of weapons, ****
            ************************************************************.. As
            of October 2005, the Joint Requirements Oversight Council had not approved the
            Increment I capability development document.

                  (U) OICW Increment I. *******************************
            *****************************, ********************************
            ***********************************************************
            ******************************************************************
            **************************************************************
            ************************************. *************************
            **********************************************************

                     (U) OICW Increment II. Draft documentation for Increment II states
            that it will fire ***********, high explosive, airbursting munitions that will
            allow the soldier to acquire a target, day or night, using optical and thermal
            systems with a laser range finder. ************************************
            ******************************************************************
            *******************************************.

                  (U) OICW Increment III. ****************************
            *************************************************************
            **********************************************************.

            (U) Full and Open Competition. **************************
            ****************************************************************
            ******************************************************************
            ***********************. *

            **********************************************************


*
    (U) Attorney client privilege, predecisional, and source selection sensitive data omitted.


                                                         3
            *************************************************************
            ******************************************************************
            ************************.

            (U) Request for Proposal. On May 11, 2005, the Picatinny Center for
            Contracting and Commerce issued a request for proposal for the development and
            production of the **********************************************
            ******************.

            (U) DoD Office of Inspector General Memorandum. On May 27, 2005, the
            DoD Office of Inspector General sent a memorandum to the Assistant Secretary
            of the Army (Acquisition, Logistics, and Technology) suggesting that he suspend
            the request for proposal until the OICW Program completed the required program
            documentation, determined the appropriate ACAT, and resolved weaknesses in
            the OICW operational requirements document, approved in February 2000. On
            July 19, 2005, the Army suspended the request for proposal until the Joint
            Requirements Oversight Council convenes to complete the Joint Capabilities
            Integration and Development System process for the OICW capability
            development document.

            (U) This report expands upon the issues identified in the DoD Office of Inspector
            General’s memorandum (see Appendix C). A follow-on draft report will address
            OICW Increment II.

            (U) Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
            Response to DoD Office of Inspector General Memorandum. On July 27,
            2005, the Assistant Secretary of the Army (Acquisition, Logistics, and
            Technology) issued a memorandum in response to the May 27, 2005, DoD Office
            of Inspector General memorandum. In his response, the Assistant Secretary
            stated that his office was working the issues discussed in the DoD Office of
            Inspector General memorandum and expected to resolve them all before the
            system development and demonstration milestone decision in the third quarter of
            FY 2006. Further, he provided a point paper as an enclosure in response to the
            DoD Office of Inspector General’s memorandum. The Assistant Secretary also
            stated that he had suspended the request for proposal until the capability
            development document completed the Joint Capabilities Integration and
            Development System process. See Appendixes D and E for the complete text of
            the Assistant Secretary’s comments and the audit response, respectively.

Objectives (U)
            (U) The primary audit objective was to evaluate the overall management of the
            OICW Increments I, II, and III. Because the Army issued a request for proposal
            for the development and production of Increment I before the program entered the
            system development and demonstration phase, we determined whether
            management was complying with required acquisition procedures and

*
    (U) Predecisional and source selection sensitive data omitted.


                                                        4
            implementing best business practices available through acquisition initiatives.
            We also evaluated the management control program as it relates to the audit
            objective.
            (U) The initial audit announcement letter was for the Airburst Weapon System
            (XM25) and the Integrated Airburst Weapon System (XM29), but it did not
            mention the Modular Assault Weapon System (XM8). As a result, we
            reannounced it as the audit of the “Acquisition of the Objective Individual
            Combat Weapon” to include Objective Individual Combat Weapon Increments I,
            II, and III (XM8, XM25, and XM29, respectively). See Appendix A for a
            discussion of the scope and methodology and prior coverage related to the audit
            objectives.

Managers’ Internal Control Program (U)
            (U) DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
            1996, and DoD Instruction 5010.40, “Management Control (MC) Program
            Procedures,” August 28, 1996, require DoD organizations to implement a
            comprehensive system of management controls that provides reasonable
            assurance that programs are operating as intended and to evaluate the adequacy of
            the controls.

            (U) Scope of the Review of the Management Control Program. In accordance
            with DoD policy, acquisition managers are to use program cost, schedule, and
            performance parameters as control objectives to implement the requirements of
            DoD Directive 5010.38. Accordingly, we limited our review to management
            controls directly related to the areas of program documentation, ACAT
            classification, and capability requirements for the OICW.

            (U) Adequacy of Management Controls. We identified a material management
            control weakness in the Office of the Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology) as defined by DoD Instruction 5010.40.
            Although the management controls outlined in the DoD 5000 series of guidance
            and Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003, were
            adequate for controlling acquisitions, such as the OICW Program, the Office of
            the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) did
            not use those controls. Specifically, the Product Office Individual Weapons
            issued a request for proposal for the development and production of the OICW
            Increment I without completing an analysis of alternatives, an initial capabilities
            document, a capability development document, a test and evaluation master plan,
            an acquisition program baseline, an affordability assessment, a cost analysis
            requirements description, an independent cost estimate, a manpower estimate, and
            a technology development strategy for OICW Increment I as required by the
            DoD 5000 series of guidance and Army Regulation 70-1. Further, the Office of
            the Assistant Secretary did not correctly categorize the program as an ACAT I,
            even though the procurement estimate for the OICW Increment I exceeded the
            ACAT I threshold. Finally, the Project Manager Soldier Weapons developed the
            XM8 (Increment I) ************************************ without an
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        5
approved requirement. Recommendations 1., 2., 3., and 4., if implemented, will
improve controls for completing required program documentation, for
determining the ACAT, and for resolving weaknesses in OICW operational
requirements. We will provide a copy of this report to the senior Army official
responsible for management controls in the Department of the Army.

(U) Adequacy of Management’s Self-Evaluation. In the Army’s “Fiscal
Year 2005 (FY05) Annual Statement of Assurance on Management Controls,”
July 22, 2005, the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) identified material weaknesses; however, none of
those weaknesses was attributed to the OICW Program. Although the Office of
the Assistant Secretary identified the Program Executive Office Soldier as an
assessable unit, the Office of the Assistant Secretary did not perform an
evaluation of the Program Executive Office Soldier because the Program
Executive Office Soldier conducts self-evaluations. If the Program Executive
Office Soldier identifies a material weakness, it includes the weakness in its
annual statement of assurance to the Office of the Assistant Secretary.

(U) The Program Executive Office Soldier identified the Project Manager Soldier
Weapons Office as an assessable unit; however, it did not identify a material
weakness associated with the OICW Program in its “FY 2005 Annual Assurance
Statement on Management Control,” June 27, 2005, to the Office of the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology). The Program
Executive Office Soldier conducts quarterly reviews of the Project Manager
Soldier Weapons Office and subordinate product offices. The subordinate
product offices include the Product Manager Individual Weapons Office that
manages the OICW Program. The Program Executive Office Soldier based its
annual statement of assurance on the results of those reviews. Further, the Project
Manager Soldier Weapons Office in its “Fiscal Year 2005 Annual Assurance
Statement on Management Control,” June 6, 2005, did not identify any material
weaknesses. Management’s self-evaluations did not identify any material
weaknesses because the checklists and other methods of evaluation that
management used did not detect any management control deficiencies that
management considered to be material weaknesses.

(U) Because we identified a material control weakness associated with the
Program Executive Office Soldier and the Army relied on Program Executive
Office Soldier for self-evaluations, we plan to assess Program Executive Office
Soldier’s management controls during Project No. D2005-D000AE-0224, “Audit
of Army Acquisition Executive’s Management Oversight and Procurement
Authority for Acquisition Category I and II Programs.”




                                     6
Program Management of the Objective
Individual Combat Weapon (U)
(U) At the request of the Office of the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), the Picatinny Center for
Contracting and Commerce, issued a request for proposal for the
development and production of the OICW Increment I before the program
entered the system development and demonstration phase of the acquisition
process and before the Army completed key required program
documentation needed for objective acquisition decision making;
determined the appropriate acquisition category that, as a matter of
classification, would highlight the level of proposed investment and
importance to the DoD; and resolved weaknesses with the OICW
operational requirements document, which had not identified a requirement
for a family of weapons. During the audit, on July 19, 2005, the Army
suspended the request for proposal until the Joint Requirements Oversight
Council convenes to complete the Joint Capabilities Integration and
Development System process for the OICW capability development
document. The request for proposal was issued prematurely because the
Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) did not enforce the management controls outlined in the
DoD 5000 series of guidance and Army Regulation 70-1 for the acquisition
of the OICW to:

       •   require that program documentation, including an approved
           analysis of alternatives, an initial capabilities document, a
           capability development document, a test and evaluation master
           plan, an acquisition program baseline, an affordability
           assessment, a cost analysis requirements description, an
           independent cost estimate, a manpower estimate, and a
           technology development strategy were completed before
           pursuing the development of a materiel solution;

       •   notify the Under Secretary of Defense for Acquisition,
           Technology, and Logistics of a potential ACAT I program; and

       •   develop materiel solutions for the acquisition strategy that met
           the requirements of the approved OICW operational
           requirements document.

(U) Without completing the required documentation, determining the
appropriate acquisition category, and resolving issues with the operational
requirements document, the Army cannot be assured that the OICW
satisfies warfighter needs with measurable improvements to mission
capability and operational support, in a timely manner.




                              7
Management Control Guidance (U)
            (U) DoD Policy. DoD Directive 5000.1, “Defense Acquisition System,” May 12,
            2003, along with DoD Instruction 5000.2, “Operation of the Defense Acquisition
            System,” May 12, 2003, provides management principles and mandatory policies
            for managing all acquisition programs. DoD Instruction 5000.2 establishes a
            simplified and flexible management framework for translating mission needs and
            technology opportunities, based on approved mission needs and requirements,
            into stable, affordable, and well-managed acquisition programs.

            (U) Army Policy. Army Regulation 70-1 contains management control
            provisions and identifies key internal controls that must be evaluated. The
            Regulation states that the key internal controls for both major and non-major
            Defense acquisition programs are the milestone documentation requirements
            specified in DoD Instruction 5000.2

Enforcing Management Controls (U)
            (U) On May 11, 2005, the Picatinny Center for Contracting and Commerce issued
            a “final solicitation,” W15QKN-05-R-0449 (request for proposal), to obtain
            proposals for the development and production of the OICW Increment I family of
            weapons to *********************************************. However,
            the Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
            Technology) did not complete the required key program documentation needed
            for objective acquisition decision making; determine the appropriate acquisition
            category that, as a matter of classification, would highlight the level of proposed
            investment and importance to the DoD; and resolve weaknesses in the OICW
            operational requirements document before issuing the request for proposal. On
            July 19, 2005, the Army suspended the request for proposal until the Joint
            Requirements Oversight Council convenes. However, the Office of the Assistant
            Secretary of the Army (Acquisition, Logistics, and Technology) should suspend or
            terminate the request for proposal until the program documentation, ACAT, and
            operational requirements issues are also resolved.

            Program Documentation (U)
            (U) Required Program Documentation. DoD Instruction 5000.2 requires each
            increment in an evolutionary acquisition program to begin with a system
            development and demonstration decision followed by a production and
            deployment decision. The Instruction identifies the mandatory statutory and
            regulatory documents that the program manager is required to submit in support
            of the system development and demonstration decision review. Some of the
            required statutory documents for submission include an independent cost
            estimate; a manpower estimate; a technology development strategy; and an
            acquisition program baseline. Some of the required regulatory documents include
            an initial capabilities document, a capability development document, an

*
    (U) Predecisional and source selection sensitive data omitted.

                                                         8
           acquisition strategy, an analysis of alternatives, an affordability assessment, a cost
           analysis requirements description, and a test and evaluation master plan.

           (U) DoD Instruction 5000.2 also requires the Director, Program Analysis and
           Evaluation to direct that an analysis of alternatives is developed for potential and
           designated ACAT I programs. The DoD Component representative is required to
           provide the analysis of alternatives to the Director, Program Analysis and
           Evaluation not later than 60 days before a Defense Acquisition Board review.

           (U) Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint Capabilities
           Integration and Development System,” May 11, 2005, states that the Under
           Secretary of Defense for Acquisition, Technology and Logistics will advise on
           whether the applicable capabilities are in place to achieve the desired objective, and
           the Director, Program Analysis and Evaluation may provide specific guidance on
           the conduct of an analysis of alternatives, as approved by the milestone decision
           authority.

           (U) Approved Program Documentation. As of October 2005, the OICW
           Increment I did not have a completed analysis of alternatives and an approved
           capability development document, test and evaluation master plan, acquisition
           program baseline, affordability assessment, cost analysis requirements description,
           independent cost estimate, manpower estimate, and technology development
           strategy. In addition, the OICW milestone decision authority, the Assistant
           Secretary of the Army (Acquisition, Logistics, and Technology), had not approved
           Increment I for entry into the system development and demonstration or production
           and deployment phases of the acquisition process. Further, the Joint Requirements
           Oversight Council had not approved the capability development document for
           OICW Increment I.

           (U) On July 27, 2005, the Assistant Secretary of the Army (Acquisition, Logistics,
           and Technology) stated that the test and evaluation master plan and the acquisition
           program baseline were in draft form and would be updated for final approval based
           on the outcome of the competitive procurement. Further, the Assistant Secretary
           stated that the Army Requirements Oversight Council approved the capability
           development document on October 19, 2004, and entered Joint Requirements
           Oversight Council staffing on or about February 28, 2005, with anticipated
           completion in September 2005.3 The Assistant Secretary also stated that all the
           necessary documents would be completed before the system development and
           demonstration decision in the 3rd quarter of FY 2006.

           (U) The Army Training and Doctrine Command had not completed an analysis of
           alternatives to support the development of a materiel solution for OICW
           Increment I. On February 9, 2005, during a review of the Increment I analysis of



3
    (U) In the August 24, 2005, minutes of the Joint Capabilities Board meeting, the Board stated that the
    capability development document for the OICW Increment I would not proceed without the results of the
    analysis of alternatives. As of October 2005, the Army has not provided the results of the analysis of
    alternatives to the Joint Capabilities Board.

                                                       9
           alternatives, the Study Advisory Group, chaired by the Deputy Under Secretary of
           the Army (Operations and Research), requested:

                    •   the Army Training and Doctrine Command to further develop the
                        qualitative analysis for the family of weapons key performance
                        parameter;

                    •   the Program Executive Office Solider to clarify how to mount the
                        Multi-Purpose Sighting System on the existing M4s;

                    •   the Army Training and Doctrine Command Analysis Center, the Office
                        of the Army Deputy Chief of Staff (G-8), and the Deputy Assistant
                        Secretary of the Army (Cost and Economics) to revise the cost analysis
                        and the follow-on affordability assessment; and

                    •   the Project Manager Soldier Weapons to update the cost and
                        affordability analyses for the existing weapons.

           (U) Even though the tasks that the Study Advisory Group requested had not been
           completed, the Deputy Under Secretary of the Army (Operations Research) stated
           that the analysis of alternatives was sufficient to support the capability
           development document for Increment I through the Joint Requirements Oversight
           Council approval process.

           (U) On July 27, 2005, the Assistant Secretary of the Army (Acquisition,
           Logistics, and Technology) stated that the Study Advisory Group supported a
           system development and demonstration decision and that he anticipated a formal
           analysis of alternatives in September 2005.4 Further, he stated that the U.S. Army
           Infantry Center and School conducted the Family of Weapons Analysis and
           provided the Analysis to the U.S. Army Training and Doctrine Command in May
           2005. The Assistant Secretary also stated that the Project Manager Soldier
           Weapons compiled new operations and maintenance cost data for the existing
           weapons and developed a business case analysis that compared the OICW
           Increment I family of weapons to the existing weapons.

           Acquisition Category (U)
           (U) DoD Acquisition Category Policy. DoD Instruction 5000.2 requires DoD
           Components to notify the Under Secretary of Defense for Acquisition,
           Technology, and Logistics when a cost growth or a change in acquisition strategy
           results in reclassifying a formerly lower ACAT program as an ACAT I or IA
           program. Further, the Instruction requires DoD Components to report ACAT-
           level changes as soon as the program is within 10 percent of the next ACAT level.
           The Under Secretary of Defense for Acquisition, Technology, and Logistics
           reclassifies ACAT levels. The Instruction defines an ACAT I program as one that
           costs more than $2.1 billion for procurement in FY 2000 dollars. Further, the



4
    (U) See Footnote 3, page 9.

                                                 10
            Instruction states that the Under Secretary may classify programs as ACAT ID
            when a program has a special interest based on one or more of the following
            factors: technological complexity, congressional interest, a large commitment of
            resources, critical capability or set of capabilities, or a joint program.

            (U) Army Acquisition Category Policy. Army Regulation 70-1 states that
            ACAT level changes will be reported as soon as the program executive officer or
            the program manager suspects that the program is within 10 percent encroachment
            of the next ACAT level. The Assistant Secretary of the Army (Acquisition,
            Logistics, and Technology) is responsible for notifying the Under Secretary of
            Defense for Acquisition, Technology, and Logistics when cost growth or a change
            in acquisition strategy results in changing a previously lower categorized program
            to an ACAT I or IA program.

            (U) Projected Procurement Quantity for OICW Increment I. The Army listed
            the OICW Increment I as an ACAT II program and Increments II and III as
            another ACAT II program. The Army incorrectly categorized the OICW Program
            as two ACAT II programs even though the procurement estimate for Increment I
            alone exceeds the dollar threshold for ACAT I procurement. The Joint
            Requirements Oversight Council-unapproved capability development document
            states that Increment I will ************************************.5
            The existing Army inventory of small arms listed in the Army Materiel Command
            Weapon System Major Item Asset List identifies approximately 1.3 million
            weapons that Increment I may replace. **************************** * *
            ******************************************.

            (U) Acquisition Strategy. *********************************
            ************************************************************
            *************************************************************
            **************************************************************
            ***************************************************************.

            (U) Estimated Cost of Increment I. **************************
            *************************************************************
            *******************************************************************
            *********************************************************. . Using
            the cost estimate and the number of weapons to be replaced as listed in the Army
            inventory of small arms, ****************************************
            ************* *********************************************** .

            (U) On July 27, 2005, the Assistant Secretary of the Army (Acquisition,
            Logistics, and Technology) stated that the OICW Program should be designated as
            an ACAT I, based on the result of meetings with the Office of the Under Secretary
            of Defense for Acquisition, Technology, and Logistics. Specifically, during those
            meetings, it was determined that the program was of sufficient size to be an

*
    (U) Predecisional and source selection sensitive data omitted.
5
    (U) The draft Acquisition Program Baseline states that the OICW Increment I weapon will replace
    90 percent of the M9s.

                                                        11
            ACAT I program and had the potential for use by other Military Departments.
            Further, the Assistant Secretary anticipated that the Office of the Secretary of
            Defense would publish guidance concerning the ACAT I designation after the
            analysis of alternatives is signed and available for review.

            Operational Requirements (U)
            (U) DoD Policy. DoD Regulation 7000.14, “Financial Management Regulation,”
            Volume 3, August 2000, states that a program, subprogram, modification, project,
            or subproject that was neither previously justified by DoD nor funded by the
            Congress through the normal budget process is a new start. Further, congressional
            committees discourage reprogramming funds to initiate programs.

            (U) Developing a New Rifle. The Office of the Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology) used about $33 million in OICW funds to
            develop ******************** that was unrelated to the high explosive,
            airbursting weapon described in the OICW operational requirements document.

            (U) In August 2000, the Picatinny Center for Contracting and Commerce awarded
            contract DAAE30-00-C-1065 to develop the OICW (XM29). On September 9,
            2002, after the OICW did not meet the threshold for the weight key performance
            parameter, the Project Manager Soldier Weapons issued a memorandum to the
            Picatinny Center for Contracting and Commerce that established a requirement for
            the XM8 carbine. The memorandum stated that the Program Executive Officer
            Soldier had an ongoing requirement to reduce the weight of equipment carried by
            its warfighters, including the weight of their weapons. Based on the memorandum,
            the Picatinny Center for Contracting and Commerce modified contract
            DAAE30-00-C-1065 to accelerate the development of the XM8 carbine. As of
            October 2005, the Project Manager Soldier Weapons Office had not provided
            documentation that supported the urgent need for a lighter weapon. See
            Appendix F for the September 9, 2002, memorandum.

            (U) On March 12, 2003, the Program Executive Officer Soldier issued a
            memorandum that established an urgent requirement for 200 XM8 carbines using
            one of four prototype configurations of the XM8. Based on the memorandum, on
            April 25, 2003, the Picatinny Center for Contracting and Commerce modified
            contract DAAE30-00-C-1065 as an undefinitized contractual action until the
            contractor and the contracting officer completed negotiations. The associated
            statement of work addressed the delivery of 200 XM8 carbines before entry into
            production and deployment and required the development of assault, compact,
            sharpshooter, and auto-rifle XM8 weapon variants, which first introduced the
            family of weapons concept into the OICW, but without an approved operational
            requirement and without full and open competition. The total cost associated with
            developing the XM8 was more than $33 million.

            (U) On June 11, 2003, the Program Executive Officer Soldier issued an acquisition
            decision memorandum for the XM8 carbine, even though the Assistant


*
    (U) Predecisional and source selection sensitive data omitted.

                                                        12
            Secretary of the Army (Acquisition, Logistics, and Technology) was the milestone
            decision authority for the OICW Program. The memorandum authorized the start
            of a project to develop the XM8 and the entry of the project into the system
            development and demonstration phase of the acquisition process; it further stated
            that the XM8 four weapon variants or family of weapons and the exit criteria for
            entry into production and deployment were based on the operational requirements
            document for the Future Combat Rifle. According to a representative from the
            Army Infantry Center, the operational requirements document for the Future
            Combat Rifle did not exist when the acquisition decision memorandum was issued;
            it was only a concept. The Army Infantry Center later prepared a draft operational
            requirements document for the Future Combat Rifle. In addition, the Program
            Executive Officer Soldier initiated the system development and demonstration
            phase without preparing the minimum documentation: an initial capabilities
            document, an analysis of alternatives, cost and affordability analyses, a capability
            development document, or a competition for a stand-alone family of weapons. See
            Appendix G for the June 11, 2003, acquisition decision memorandum.

            (U) On September 25, 2003, the Picatinny Center for Contracting and Commerce
            definitized the contract modification with Alliant Techsystems and established a
            negotiated cost-plus-fixed-fee price.

            (U) Army Legal Opinion. ********************, ***********
            **************************************************************
            ************* ***********************************************
            ************ ***********************************************
            *******************:
                         ************************************************************
                         *
                         ************************************************************
                         * **********************************************.

            (U) Competition for Increment I. *********************************
            *******************************************************************
            *******************************************************************
            *************************************** because the scope of the
            competition for the OICW, as described in the operational requirements document,
            changed by ***************************************.

            (U) The Program Executive Officer Soldier and the Project Manager Soldier
            Weapons spent 2 years and more than $33 million for the development of the XM8
            family of weapons. Now, the Army plans to compete for ********** ********
            *********************. The Assistant Secretary of the Army (Acquisition,
            Logistics, and Technology) should not have directed the competition for
            ************** until the Army had provided the program documentation required
            by statute and DoD guidance that justified the continued development and
            acquisition of OICW Increment I and that was needed for fully informed decision
            making. In particular, the * ** *** * ** *concept was not contained


*
    (U) Attorney client privilege, predecisional, and source selection sensitive data omitted.

                                                         13
in the approved OICW operational requirements document for the dual engagement
weapon. Additionally, initiating contracting actions without key program
information on costs and performance is premature.

(U) On July 27, 2005, the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) stated that, under the original operational requirements document,
the Army called the OICW kinetic energy capability the XM8 and based the
funding to initiate the XM8 effort on the Army policy of spiraling out emerging
technologies. Further, he stated that Congress confirmed that they were properly
notified.

(U) Congressional Interest. Congress has expressed interest in the OICW
Program; the House of Representatives Conference Report 108-773, October 9,
2004, directed the Army to report to the congressional Defense committees not
later than November 15, 2004, on plans to begin fielding the XM8 family of
weapons. On November 29, 2004, the Deputy Chief of Staff, G-3/5/7 responded:
          The XM-8 [XM8] is a prototype materiel solution development to meet the
          Army’s future force requirements as outlined in the Objective Individual
          Combat Weapon Capabilities [Capability] Development Document. The
          Army is conducting testing and evaluation to support the final weapon
          selection, in order to provide a significant improvement to our warfighting
          capabilities.

(U) Further, Report 109-89 of the House of Representatives Committee on Armed
Services on the National Defense Authorization Act for FY 2006, May 20, 2005,
requires:
          . . . the Secretary of the Army to award the contract for procurement of the
          Objective Individual Combat Weapon (OICW) Increment One using full
          and open competition. In addition, before appropriated funds are
          obligated, the Secretary shall provide a report to the congressional defense
          committees that certifies this contract was conducted using full and open
          competition.
             The committee believes the Secretary of the Army should examine the
          requirement for the OICW, Increment One to determine whether this is a
          developmental or non-developmental item and to determine accordingly
          the appropriate period for review for requests for proposals.

(U) Subsequently, Report 109-119 of the House of Representatives Committee on
Appropriations for the DoD Appropriations Bill, 2006, June 10, 2005, states that:
          The fiscal year 2006 budget request includes $32,484,000 for
          procurement of the Objective Individual Combat Weapon. In the House-
          passed version of the fiscal year 2005 Department of Defense
          Appropriations bill, $25,900,000 was added in an attempt to accelerate
          fielding this weapon. Although the procurement request for fiscal year
          2006 is similar in some respects to the proposed acceleration of the
          program last year, the Committee notes that the Army has altered its
          acquisition strategy for the program and added requirements as well. As a
          result, the Committee recommends a reduction of $10,200,000 from the
          procurement request for this program. In addition, the Committee directs
          the Secretary of the Army to provide a report to the congressional defense
          committees, not later than October 31, 2005, which provides the



                                         14
                        following information: a detailed explanation of the extent to which the
                        Army will replace the M–16, M–4, and any other families of weapons, to
                        include the overall Army Acquisition Objective; a description of the
                        OICW fielding plan to include support units; and, the length of time over
                        which the Army intends to field this weapon.

Recent Program Actions (U)
            (U) Request for Proposal. As stated in the May 27, 2005, DoD Office of
            Inspector General memorandum (Appendix C) to the Assistant Secretary of the
            Army (Acquisition, Logistics, and Technology), the Picatinny Center for
            Contracting and Commerce issued a request for proposal on May 11, 2005, for the
            development and production of the OICW Increment I ***************** *
            ***********************************************. However, this action
            was premature because the Army had not completed the required program
            documentation to provide objective acquisition information, determined the
            appropriate ACAT, or resolved weaknesses with the OICW operational
            requirements document. Accordingly, the DoD Office of Inspector General
            memorandum stated that the Army should suspend the request for proposal to
            ensure that best business practices and prudent acquisition procedures were
            followed in developing and procuring the OICW Increment I. Subsequently, on
            July 19, 2005, the Army suspended the request for proposal until the Joint
            Requirements Oversight Council convenes to complete the Joint Capabilities
            Integration and Development System process for the OICW capability development
            document.
            (U) Assistant Secretary’s Initial Action in Response to DoD Office of
            Inspector General Memorandum. According to the Military Deputy to the
            Assistant Secretary of the Army (Acquisition, Logistics, and Technology), the
            Assistant Secretary directed him to address the issues in the memorandum. On
            June 20, 2005, representatives from the DoD Office of Inspector General met with
            the Military Deputy concerning the memorandum. As a result of the meeting, the
            Military Deputy stated that his staff would arrange a meeting with the Office of the
            Under Secretary of Defense for Acquisition, Technology, and Logistics. The
            objectives of the meeting were to determine the acquisition category of the OICW
            Program and whether the request for proposal should be suspended.

            (U) Office of the Under Secretary of Defense for Acquisition, Technology, and
            Logistics Meeting. On June 29, 2005, at the request of the Army Acquisition
            Executive’s Military Deputy, the Deputy Director of Defense Systems, Land
            Warfare and Munitions, Office of the Under Secretary of Defense for Acquisition,
            Technology, and Logistics chaired a meeting with representatives from the Offices
            of the Director, Operational Test and Evaluation; the Joint Staff; the Director,
            Program Analysis and Evaluation; the Army Deputy Chief of Staff (G-3/5/7); the
            Army Deputy Chief of Staff (G-8); the Army Deputy General Counsel
            (Acquisition); the Assistant Secretary of the Army (Financial Management and
            Comptroller); and the Program Executive Officer Soldier. Also in attendance was
            a representative from the Institute for Defense Analyses. As a result of the
            meeting, the Deputy Director of Defense Systems, Land Warfare and

*
    (U) Predecisional and source selection sensitive data omitted.

                                                        15
Munitions tentatively determined that the OICW Program was an ACAT I
program. A representative from the Under Secretary’s office stated that the Deputy
Director planned to meet with the Director, Defense Systems in the Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics to discuss
whether the OICW Program should be designated as an ACAT ID or IC program.

(U) Discussion on Military Deputy’s Recommendation to the Assistant
Secretary. On July 8, 2005, at the request of the Army Acquisition Executive’s
Military Deputy, representatives from the DoD Office of Inspector General met
with the Military Deputy to discuss his recommendation to the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology) concerning the May 27,
2005, memorandum. The Military Deputy stated that he understood that the
Deputy Director of Defense Systems, Land Warfare and Munitions planned to
designate the OICW Program as an ACAT I, but whether the program was an
ACAT ID or IC would be determined at a future Defense Acquisition Board
meeting. Further, the Military Deputy stated that the Deputy Under Secretary of
the Army (Operations Research) indicated that the analysis of alternatives for
OICW Increment I supported a decision to enter the system development and
demonstration phase of the acquisition process. The representatives from the DoD
Office of Inspector General stated that the analysis of alternatives was not
supported by an initial capabilities document and that the existing mission need
statement and operational requirements document were for a different capability.
The Military Deputy stated that the DoD 5000 series allowed him to “tailor” the
requirement for an initial capabilities document; therefore, he thought that an initial
capabilities document was not necessary.

(U) At the meeting, a representative from the Office of the Deputy Under
Secretary of the Army (Operations Research) stated that he believed that the Office
of the Director, Program Analysis and Evaluation planned to approve the analysis
of alternatives for Increment I without requiring additional analysis. Further, the
representative stated that a functional needs analysis and a functional area analysis
were completed to support the preparation of the capability development document
for Increment I. The representative stated that the Office of the Director, Program
Analysis and Evaluation considered those documents, in addition to the OICW
mission need statement and the OICW operational requirements document, to be
sufficient support for the analysis of alternatives for the incremental OICW instead
of a new initial capabilities document. The Military Deputy agreed that the OICW
mission need statement and the OICW operational requirements document
described the initial need for the OICW and stated that starting over from the
beginning with documentation every time a program changes direction was not
practical. After the meeting, a representative from the Office of the Director,
Program Analysis and Evaluation stated that, at that time, his office had not
decided whether to approve the analysis of alternatives for Increment I without
requiring additional analysis.

(U) Finally, the Military Deputy stated that he planned to recommend to the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) that the
request for proposal be suspended until the Joint Requirements Oversight Council


                                      16
            approved the capability development document to certify that the documentation
            was subjected to the uniform process established by the DoD 5000 series.
            Subsequently, on July 19, 2005, the Army suspended the request for proposal until
            the Joint Requirements Oversight Council convenes to complete the Joint
            Capabilities Integration and Development System process for the OICW capability
            development document.

            (U) Assistant to the Army General Counsel Opinion. *************
            *************************************************************
            *************************************************************
            *************************************************************
            ************ ***********************************************
            ****************** ******************:
                        ************************************************************
                        *
                        ************************************************************
                        *
                        ************************************************************
                        *
                        ************************************************************
                        *
                        ************************************************************
                        *
                        ************************************************************
                        * ***********************************.

                  ******** ********************************************
            **************************************************************
            *************************************************************
            *********************************:




            U) In a May 27, 2005, meeting with representatives from the DoD Office of
            Inspector General, the Deputy General Counsel and the Assistant to the General
            Counsel stated that they stood by the September 27, 2004, opinion. However, as
            noted above, they changed their position as discussed in the Assistant to the Army
            General Counsel’s opinion on July 11, 2005.
            (U) In response to the draft report, the Army Deputy General Counsel
            (Acquisition) stated that the September 27, 2004, and the July 11, 2005, opinions
            addressed two separate legal questions and are consistent with each other when
            viewed in their proper context. Further, the Deputy General Counsel stated that the
            September 27, 2004, opinion was in response to the Army Acquisition Executive’s
            request to determine whether the Army’s requirements for the kinetic-

*
    (U) Attorney client privilege data omitted.

                                                  17
            energy portion of the OICW had changed so significantly to require a new
            competition; it did not address whether the OICW Program Office was required to
            notify Congress of a new start. He also stated that the July 11, 2005, memorandum
            discussed in the draft report was an internal product that responded to a question
            from the DoD Office of Inspector General on whether notification of a new start
            was required. The Deputy General Counsel stated that, based on the facts available
            at the time, he concluded that notification was not required.

            (U) In his July 11, 2005, opinion, the Assistant to the Army General Counsel also
            stated that the Program Executive Officer Soldier has stated on several occasions
            that the Army briefed Members of Congress regularly on the OICW Program and
            specifically on the XM8. Further, he stated that to date, no Member of Congress or
            the congressional staff has raised an issue with the Army that the new start
            notification provisions had not been followed. The Assistant to the Army General
            Counsel also stated that the most recent notification was in the February 2005
            Exhibit P-40 forms that stated “the XM8 Modular Assault Weapon is the first
            increment of the OICW program.” In addition, he stated that previous years’
            authorization acts referenced the OICW Program and the XM8.

            (U) In response to the draft report, the Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology) stated that, as part of the regular reporting
            process of Exhibit P-40, “Budget Item Justification Sheet,” (P forms) and Exhibit
            R-2, “Army RDT&E [research, development, test, and evaluation] Budget Item
            Justification,” (R forms) and frequent briefings, the Army had been keeping
            Congress informed of the progress and changes in the acquisition strategy for the
            entire OICW Program. Exhibit P-40 for the Integrated Air Burst Weapon System
            Family (G16101), February 2004, shows that the XM8 assault weapon is a new
            start under G16102 as a spiral development program from the 5.56 millimeter
            kinetic energy carbine portion of the XM29. In addition, Exhibit P-40 for XM8
            Carbine (5.56 millimeter) (G16102), February 2005, shows that the XM8 modular
            assault weapon is the first increment of the OICW Program. Further, the Exhibit
            shows that the XM8 is a multi-configurable weapon that has four variants: a
            baseline assault weapon, a designated marksman, a special compact, and a light
            machinegun. However, the exhibits did not show that the Army did not, and still
            does not, have an approved requirement for a family of weapons ***********
            *******************************. ********************************
            *****************************************************************
            ***********************.
            **************************************************************
            *****************************************************************
            ****************.

            (U) In addition, we reviewed the congressional briefing charts provided by the
            Program Executive Office Soldier for briefings to various congressional members
            from December 2002 through March 2005. The briefing charts describe the
            benefits and capabilities of a family of weapons and an integrated sighting module,
            but they do not describe the requirement for a family of weapons or the approval of
            such a requirement.

*
    (U) Predecisional and source selection sensitive data omitted.

                                                        18
    (U) Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
    Response to DoD Office of Inspector General Memorandum. On July 27,
    2005, the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) issued a memorandum in response to the May 27, 2005, DoD Office
    of Inspector General memorandum. In his response, the Assistant Secretary stated
    that his office was working the issues discussed in the DoD Office of Inspector
    General memorandum and expected to resolve them all before the system
    development and demonstration milestone decision in the third quarter of
    FY 2006.

Conclusion (U)
    (U) The incomplete program documentation, which decision makers overlooked;
    the lack of timely notification to the Under Secretary of Defense for Acquisition,
    Technology, and Logistics that the OICW was potentially an ACAT I program;
    and the uncertain acquisition strategy for materiel solutions demonstrate a
    breakdown in the Army’s management controls and the need for the Office of the
    Secretary of Defense to become involved in the OICW Program. The OICW
    Program should be designated as an ACAT ID major Defense acquisition program
    to provide assurance that it is cost-effectively developed in a timely manner to
    satisfy warfighter needs and to determine whether the Army is following best
    business practices and prudent acquisition procedures for the OICW Program.
    Further, the Army should not just suspend the “final solicitation,” W15QKN-05-
    R-0449 (request for proposal), until the Joint Requirements Oversight Council
    convenes, it should suspend or terminate the request for proposal until the Office
    of the Secretary of Defense and the Army resolve the weaknesses associated with
    program documentation, ACAT classification, and operational requirements.

Management Comments on the Finding and Audit Response (U)
    (U) Summaries of management comments on the finding and audit responses are
    in Appendix H.

Recommendations, Management Comments, and Audit
  Response (U)
    (U) Revised and Added Recommendations. In response to the draft report, the
    Director, Defense Systems, responding for the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; and the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) stated that the program documentation
    cited in the draft audit report to support a milestone decision was not necessarily
    required before release of a request for proposal. However, we continue to
    believe that it is prudent business judgment not to issue a request for proposal
    until after a program is approved to enter the system development and
    demonstration phase. This process ensures that the proposed program has
    complied with statutory and regulatory requirements and includes approved


                                         19
           requirements and program goals. If the milestone decision authority does not
           authorize entry into the system development and demonstration phase of the
           acquisition process because the program does not comply with statutory and
           regulatory requirements and key required program documentation needed for
           decision making have not been prepared, the premature issuance of a request for
           proposal could result in suspending, revising, or terminating the proposal and
           exposing the Army to contractor liability charges. In turn, those conditions could
           result in a potential waste of resources; the diminished credibility or reputation of
           management; and the impaired fulfillment of essential missions or operations,
           such as meeting warfighter needs in a timely manner.6 Therefore, we revised
           Recommendation 1. by adding a recommendation that the Under Secretary of
           Defense for Acquisition, Technology, and Logistics, in coordination with the
           Assistant Secretary of Defense (Network and Information Integration) and the
           Director, Operational Test and Evaluation, revise DoD Instruction 5000.2 to
           require the milestone decision authority to authorize the initiation of a new
           acquisition program before the program office can issue a request for proposal.

           (U) We received comments from the Director for Force Structure, Resources, and
           Assessment, responding for the Chairman, Joint Requirements Oversight Council,
           who made comments on Recommendation 4. Based on those comments, we
           revised the recommendation and added another.

           (U) 1. We recommend that the Under Secretary of Defense for Acquisition,
           Technology, and Logistics:

                 a. Designate the Objective Individual Combat Weapon as an
           Acquisition Category ID major Defense acquisition program.

           (U) Director, Defense Systems, Office of the Under Secretary of Defense for
           Acquisition, Technology, and Logistics Comments. The Director, Defense
           Systems, responding for the Under Secretary of Defense for Acquisition,
           Technology, and Logistics, partially concurred with the recommendation, stating
           that the Office of the Under Secretary of Defense for Acquisition, Technology,
           and Logistics was working with the Office of the Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology) to understand the Army’s rationale for
           designating the OICW as an ACAT II major program. The Director stated that, if
           the OICW meets the ACAT I criteria, the Office of the Under Secretary of
           Defense (Acquisition, Technology, and Logistics) will designate the OICW as an
           ACAT I program. For the complete text of the Director’s comments, see the
           Management Comments section of this report.

           (U) Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
           Comments. Although not required to comment, the Assistant Secretary stated
           that his office will notify the Under Secretary of Defense for Acquisition,
           Technology, Logistics that the OICW Program has the potential to breach the



6
    (U) DoD Instruction 5010.40 identifies potential impacts of a weakness that a manager may consider when
    determining whether the absence of or noncompliance with a control is a material weakness.

                                                      20
            threshold requirements for an ACAT I program. For the complete text of the
            Assistant Secretary’s comments, see the Management Comments section of this
            report.

            (U) Principal Deputy Director, Program Analysis and Evaluation Comments.
            Although not required to comment, the Principal Deputy agreed with the
            recommendation. For the complete text of the Principal Deputy’s comments, see
            the Management Comments section of this report.

            (U) Audit Response. The comments from the Office of the Under Secretary of
            Defense for Acquisition, Technology, and Logistics were not fully responsive.
            DoD Instruction 5000.2 does not state that reclassifying a formerly lower ACAT
            program as an ACAT I program is based on understanding the DoD Component’s
            rationale for ACAT designation; the Instruction states that ACAT designation is
            based on cost growth or a change in acquisition strategy. Specifically, the
            Instruction requires DoD Components to notify the Under Secretary of Defense for
            Acquisition, Technology, and Logistics when cost growth or a change in the
            acquisition strategy results in reclassifying a formerly lower ACAT program as an
            ACAT I program. The Instruction defines an ACAT I program as one that costs
            more than $2.1 billion for procurement in FY 2000 dollars. Further, the Instruction
            requires the DoD Component to report the ACAT-level change when the program
            is estimated to be within 10 percent of the next ACAT level. The Under Secretary
            of Defense for Acquisition, Technology, and Logistics may reclassify an
            acquisition program at any time. As stated in the finding, using the cost estimate
            and the number of weapons to be replaced as listed in the Army inventory of small
            arms,

            **************************************************************
            ******** ****************************** *********.

            (U) We request that the Under Secretary of Defense for Acquisition, Technology,
            and Logistics review his office’s position on the recommendation and that he, not
            his staff, comment on the final report and include when he will decide the
            acquisition category for the OICW Program.

                    b. In coordination with the Assistant Secretary of Defense (Network
            and Information Integration) and the Director, Operational Test and
            Evaluation, revise DoD Instruction 5000.2, “Operation of the Defense
            Acquisition System,” May 12, 2003, to require the milestone decision authority
            to authorize the initiation of a new acquisition program before the program
            office can issue a request for proposal.

            (U) We request that the Under Secretary of Defense for Acquisition, Technology,
            and Logistics; the Assistant Secretary of Defense (Network and Information
            Integration); and the Director, Operational Test and Evaluation provide comments
            on this recommendation in response to the final report.



*
    (U) Predecisional and source selection sensitive data omitted.

                                                        21
(U) 2. We recommend that the Director, Program Analysis and Evaluation
require the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) to develop an analysis of alternatives for the Objective Individual
Combat Weapon that refines the selected concept documented in an approved
initial capabilities document, as required by DoD Instruction 5000.2,
“Operation of the Defense Acquisition System,” May 12, 2003.

(U) Principal Deputy Director, Program Analysis and Evaluation
Comments. The Principal Deputy concurred with the recommendation.

 (U) 3. We recommend that the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology):

       a. Enforce the management controls outlined in DoD
Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
2003, and Army Regulation 70-1, “Army Acquisition Policy,” December 31,
2003, for the acquisition of the Objective Individual Combat Weapon.

(U) Army Comments. The Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) nonconcurred with the recommendation, stating that
his office followed management controls. He stated that his office previously
managed the OICW program as an ACAT II program and that the OICW
Increment I had:

       •   an analysis of alternatives that the Deputy Under Secretary of the Army
           (Operations Research) approved and stated could support a system
           development and demonstration but was insufficient to support
           any form of production decision,

       •   an equivalent analysis for an initial capabilities document,

       •   a capability development document that the Army Requirements
           Oversight Council approved,

       •   an approved acquisition strategy, and

       •   an approved acquisition plan.

(U) The Assistant Secretary stated that the test and evaluation master plan, the
acquisition program baseline, the affordability assessment, the cost analysis
requirements description, the Army cost position, the manpower estimate, and the
technology development strategy are not required until the system development
and demonstration decision, which is scheduled for the third quarter of FY 2006.

(U) Principal Deputy Director, Program Analysis and Evaluation
Comments. Although not required to comment, the Principal Deputy agreed with
the recommendation.




                                     22
            (U) Audit Response. The Army’s comments were not responsive. The
            management controls for the OICW Program did not provide reasonable assurance
            that management is achieving the desired results through effective stewardship of
            public resources. Further, the weakness was serious enough to have been brought
            to the attention of higher level management as a point of information. The
            Assistant Secretary should have conducted a system development and
            demonstration review before issuing the request for proposal to reduce the risk of
            Government liability to contractors should the analysis of alternatives determine
            that a new family of weapons is not the best alternative for the DoD or should the
            Joint Requirements Oversight Council not approve the OICW Increment I
            Capability Development Document.7 If the results of the analysis of alternatives
            determine that a new family of weapons is not the best alternative or the Joint
            Requirements Oversight Council does not approve the OICW Increment I
            Capability Development Document, the Army could be exposed to contractor
            liability issues; a potential waste of resources; the diminished credibility or
            reputation of management; and the impaired fulfillment of essential missions or
            operations, such as meeting warfighter needs in a timely manner. Issuing a request
            for proposal before determining the best alternative to meet the capability gap,
            approving requirements, and determining the level of investment required by the
            Department, is neither prudent management nor consistent with best business
            practices.

            (U) DoD Instruction 5000.2 requires the statutory and regulatory documentation to
            be completed before the system development and demonstration decision to enable
            the milestone decision authority to make an informed decision on whether to
            approve the initiation of a new acquisition program. Without completing the test
            and evaluation master plan, the acquisition program baseline, the affordability
            assessment, the cost analysis requirements description, the manpower estimate, and
            the technology development strategy before issuing the request for proposal, the
            Army cannot be assured that the request for proposal adequately communicates
            approved Government requirements to prospective contractors so that the
            warfighter receives a quality product that satisfies their needs with measurable
            improvements to mission capability and operational support, in a timely manner.
            Those documents provide the test and evaluation plan needed to determine whether
            the system will be operationally effective, suitable, and lethal; the key cost,
            schedule, and cost constraints; life-cycle cost estimates; technical and program
            features; and the rationale for adopting an evolutionary strategy.

            (U) Accordingly, we request that the Assistant Secretary reconsider his position on
            the recommendation and comment on the final report.




7
    (U) Section 153, title 10, United States Code states that the Chairman of the Joint Chiefs of Staff is
    responsible for assessing military requirements for DoD acquisition programs.

                                                         23
       b. Suspend or terminate the “final solicitation,” W15QKN-05-R-0449
(request for proposal), not just until the Joint Requirements Oversight
Council convenes, but until the acquisition of the Objective Individual
Combat Weapon is in compliance with the acquisition procedures required
by DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
May 12, 2003, and Army Regulation 70-1, “Army Acquisition Policy,”
December 31, 2003.

(U) Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Comments. The Assistant Secretary neither concurred nor nonconcurred with the
recommendation; however, he stated that his office suspended the request for
proposal and would not release it until the Joint Requirements Oversight Council
completes its review.

(U) Principal Deputy Director, Program Analysis and Evaluation
Comments. Although not required to comment, the Principal Deputy agreed with
the recommendation.

(U) Audit Response. The Army’s comments were not responsive. The Assistant
Secretary should not only suspend the request for proposal until the Joint
Requirements Oversight Council convenes, he should also suspend or terminate
the request for proposal until the program documentation, ACAT, and operational
requirements issues are resolved. Issuing a request for proposal before
determining the best alternative to meet the capability gap, approving
requirements, and determining the level of investment required by the
Department, is neither prudent management nor consistent with best business
practices.

(U) Accordingly, we request that the Assistant Secretary reconsider his position on
the recommendation and comment on the final report.

(U) 4. We recommend that Joint Staff Director for Force Structure,
Resources, and Assessment Directorate:

       a. Not forward the capability development document for the
Objective Individual Combat Weapon to the Chairman, Joint Requirements
Oversight Council for approval until the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics determines the correct
acquisition category level and until the Office of the Director, Program
Analysis and Evaluation has completed directing the development of the
analysis of alternatives by preparing initial guidance, reviewing the analysis
plan, and reviewing the final analysis products in accordance with DoD
Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
2003.




                                    24
       b. Complete a second Joint Staff review after receiving a revised
capability development document with the results of the updated analysis of
alternatives to ensure that any refinements to the concept or approach
continue to meet the warfighter’s capability needs for the Objective
Individual Combat Weapon, in accordance with Chairman of the Joint
Chiefs of Staff Instruction 3170.01E, “Joint Capabilities Integration and
Development System,” May 11, 2005.

(U) Director for Force Structure, Resources, and Assessment, Office of the
Chairman, Joint Requirements Oversight Council Comments. The Director
for Force Structure, Resources, and Assessment, responding for the Chairman,
Joint Requirements Oversight Council, concurred with the recommendation and
made suggestions on the recommendation. The Director suggested that the
recommendation be revised into two recommendations as discussed above. The
Director’s rationale for the change was to identify the next action by the Joint
Capabilities Board as a result of its August 24, 2005, meeting in which it delayed
forwarding the capability development document for OICW Increment I to the
Joint Requirements Oversight Council. Further, the Director clarified the role of
the Office of the Director, Program Analysis and Evaluation as defined in DoD
Instruction 5000.2. Specifically, he stated that designating the OICW Program as
an ACAT I program precedes the Office of the Director, Program Analysis and
Evaluation becoming involved in the acquisition of the OICW Program. In
addition, he stated that, after the OICW is designated as an ACAT I program, the
Office of the Director, Program Analysis and Evaluation approves guidance on the
analysis of alternatives and study plan, after which the milestone decision
authority approves the results. The Director also stated that Recommendation 4.b.
makes clear that a second Joint Staff review of the capability development
document for OICW Increment I will not occur unless the Army submits a revised
capability development document. For the complete text of the Director’s
comments, see the Management Comments section of this report.

(U) In addition to the Director’s comments on the recommendation, a
representative from the Director’s office provided the minutes of the August 24,
2005, Joint Capabilities Board meeting. In those minutes, the Joint Capabilities
Board stated that the capability development document for OICW Increment I
would not proceed without the results of the analysis of alternatives. Therefore,
the Force Application Functional Capabilities Board needed to become involved
with the analysis of alternatives process as soon as possible. Further, the minutes
stated that one of the four key performance parameters was changed to a key
system attribute or requirement that could affect the results of the analysis of
alternatives. As a result, a representative from the Office of the Director, Program
Analysis and Evaluation stated that instructions for an analysis of alternatives were
needed to evaluate a broader range of alternatives. The minutes also stated that
the Joint Capabilities Board indicated that the OICW would have joint
applicability, and that the Military Departments needed to participate in the
analysis of alternatives. In addition, the Joint Capabilities Board stated that the
OICW timeline needed to be adjusted to allow for additional testing and analysis
and that program funding needed to be adjusted to coincide with testing, low rate
production, and full-production costs. Further, the minutes stated that a



                                     25
representative from the Office of the Director, Program Analysis and Evaluation
stated that the OICW should be an ACAT I program primarily because of the
overall cost of the system, to which the Army concurred.

(U) Principal Deputy Director, Program Analysis and Evaluation Comments.
Although not required to comment, the Principal Deputy agreed with the
recommendation.

(U) Audit Response. The comments by the Director for Force Structure,
Resources, and Assessment met the intent of our recommendation. Based on those
comments, we revised Recommendation 4.a. and added Recommendation 4.b. The
Director’s comments were responsive to Recommendation 4.a. and his suggestion
to add Recommendation 4.b. clarified his office’s review of the capability
development document for OICW Increment I. Accordingly, no additional
comments are required.




                                    26
Appendix A. Scope and Methodology (U)
   (U) We reviewed the following documentation and information dated from
   December 1993 through October 2005 to accomplish the audit objectives:

          •   Program documents including the OICW mission need statement,
              December 9, 1993; the OICW operational requirements document,
              February 11, 2000; the OICW analysis of alternatives, January 2000;
              the OICW acquisition strategy, March 17, 2000; the OICW
              Increment I acquisition strategy, February 2005; the Army-approved
              OICW capability development document, October 19, 2004; the
              OICW acquisition plan, February 17, 2005; the draft OICW
              Increment I test and evaluation master plan; and the draft OICW
              Increment I analysis of alternatives;

          •   Contractual documents for the OICW, including contract DAAE30-
              00-C-1065 with Alliant Tech Systems Integrated, contract W15QKN-
              04-C-1074 with Heckler and Koch, and the “final solicitation,”
              W15QKN-05-R-0449 (request for proposal);

          •   Project Manager Soldier Weapons Memorandum, “Urgent U.S. Army
              Requirement for the XM8 Lightweight Carbine,” September 9, 2002;
              Program Executive Officer Soldier Memorandum, “Urgent United
              States Army Requirement for 200 XM8 Lightweight Carbines,”
              March 12, 2003; and Program Executive Officer Soldier
              Memorandum, “Acquisition Decision Memorandum for 5.6mm
              [millimeter], XM8, Light Weight Carbine,” June 11, 2003; and

          •   Management principles and mandatory policies for acquisition
              programs in DoD Directive 5000.1 and DoD Instruction 5000.2, and
              management control provisions and key internal controls in Army
              Regulation 70-1.

   (U) We also contacted the staffs of the Offices of the Under Secretary of Defense
   for Acquisition, Technology, and Logistics; the Assistant Secretary of the Army
   (Acquisition, Logistics, and Technology); the Director, Operational Test and
   Evaluation; the Joint Staff; the Director, Program Analysis and Evaluation; the
   Army Deputy Chief of Staff (G-3); the Army Deputy Chief of Staff (G-8); the
   Army Deputy General Counsel (Acquisition); the Assistant Secretary of the Army
   (Financial Management and Comptroller); the Army Training and Doctrine
   Command; the Army Infantry Center; the Program Executive Officer Soldier; the
   Project Manager Soldier Weapons; the Product Manager Individual Weapons; the
   Defense Contract Management Agency; and the Defense Contract Audit Agency
   to identify program background, history, and reasons for the Army issuing a
   request for proposal to develop and produce OICW Increment I before the
   program entered system development and demonstration and before the Army




                                      27
    completed the required program documentation, determined the appropriate
    ACAT, and resolved weaknesses in the OICW operational requirements
    document.

    (U) We performed this audit from November 29, 2004, through September 19,
    2005, in accordance with generally accepted government auditing standards.

    (U) Limitation. As of October 2005, we are continuing to examine urgency
    statements pursuant to Government Auditing Standards, paragraph 7.24. Those
    statements resulted in a sole-source contract modification that was not supported
    by a documented requirement from the warfighter.

    (U) Use of Computer-Processed Data. We did not use computer-processed
    data to perform this audit.

    (U) Use of Technical Assistance. The Technical Assessment Division, Office of
    the Assistant Inspector General for Audit Followup and Technical Support
    assisted the audit team by comparing the OICW capability development
    document and the test and evaluation master plan for the OICW Increment I with
    the test results for the XM8.

    (U) Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Weapon Systems Acquisition high-risk area.

Prior Coverage (U)
    (U) No prior coverage has been conducted on the OICW Program during the last
    5 years.




                                        28
Appendix B. Glossary (U)
   (U) Acquisition Category. An acquisition category facilitates decentralized
   decision making and execution and compliance with statutorily imposed
   requirements. The categories determine the level of review, decision authority,
   and applicable procedures. Acquisition categories include I, II, III, and IV. The
   following are definitions for Acquisition Categories I and II:

          Acquisition Category I. An acquisition category I program is defined as
   a major Defense acquisition program estimated by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics to require an eventual
   expenditure of research, development, test, and evaluation funds of more than
   $365 million in FY 2000 constant dollars, or of procurement funds of more than
   $2.19 billion in FY 2000 constant dollars, or is designated by the Under Secretary
   of Defense for Acquisition, Technology, and Logistics to be an Acquisition
   Category I program. Acquisition Category I programs have two subcategories:
   Acquisition Category ID and Acquisition Category IC. The Under Secretary of
   Defense for Acquisition, Technology, and Logistics designates programs as
   Acquisition Category ID or IC.

                  Acquisition Category ID. For this category, the Under Secretary
   of Defense for Acquisition, Technology, and Logistics is the milestone decision
   authority. The “D” refers to the Defense Acquisition Board that advises the
   Under Secretary of Defense for Acquisition, Technology, and Logistics at major
   decision points.
                  Acquisition Category IC. For this category, the DoD Component
   Head or, if delegated, the DoD Component Acquisition Executive is the milestone
   decision authority. The “C” refers to Component.

           Acquisition Category II. An Acquisition Category II program is defined
   as an acquisition program that does not meet the criteria for an Acquisition
   Category I program, but does meet the criteria for a major system. A major
   system is defined as a program estimated by the DoD Component Head to require
   an eventual expenditure of research, development, test, and evaluation funds of
   more than $140 million in FY 2000 constant dollars, or of procurement funds of
   more than $660 million in FY 2000 constant dollars, or those designated by the
   DoD Component Head to be an Acquisition Category II program.

   (U) Army Acquisition Objective. An Army acquisition objective is the quantity
   of an item of equipment or ammunition required to equip and sustain the Army,
   together with specified allies, in wartime from D-Day through the period
   prescribed and at the support level directed in the latest Office of the Secretary of
   the Defense Consolidated Guidance.

   (U) Acquisition Program Baseline. An acquisition program baseline prescribes
   the key performance, cost, and schedule constraints approved by the milestone
   decision authority as criteria for allowing a program to proceed into the next
   phase of the acquisition process.

                                        29
(U) Acquisition Strategy. An acquisition strategy is a business and technical
management approach designed to achieve program objectives within the
resource constraints imposed. It is the framework for planning, directing,
contracting for, and managing a program. It provides a master schedule for
research, development, test, production, fielding, modification, post-production
management, and other activities essential for program success. The acquisition
strategy is the basis for formulating functional plans and strategies.

(U) Affordability Assessment. An affordability assessment demonstrates that a
program’s projected funding and manpower requirements are realistic and
achievable in the context of the DoD Component’s overall long-range
modernization plan.

(U) Analysis of Alternatives. The analysis of alternatives is the evaluation of
the operational effectiveness, operational suitability, and estimated costs of
alternative systems to meet a mission capability. The analysis assesses the
advantages and disadvantages of alternatives being considered to satisfy
capabilities, including the sensitivity of each alternative to possible changes in
key assumptions or variables.

(U) Capability Development Document. A capability development document
contains the information necessary to develop a proposed program, normally
using an evolutionary acquisition strategy. The capability development document
outlines an affordable increment of militarily useful, logistically supportable, and
technically mature capability. The capability development document should be
approved before the system development and demonstration decision review.

(U) Cost Analysis Requirements Description. A cost analysis requirements
description describes the most significant features of an acquisition program and
its associated system. It describes the technical and programmatic features that
are used to prepare the program office cost estimate, component cost analysis, and
independent life-cycle cost estimates.

(U) Critical Operational Issue. A critical operational issue is an issue of
operational effectiveness or operational suitability (not parameters, objectives, or
thresholds), or both, that must be examined in operational test and evaluation to
determine the system’s capability to perform its mission. A critical operational
issue is normally phrased as a question that must be answered to properly
evaluate operational effectiveness or operational suitability.

(U) Defense Acquisition Board. The Defense Acquisition Board is the DoD
senior-level forum for advising the Under Secretary of Defense for Acquisition,
Technology, and Logistics on critical decisions concerning Acquisition
Category ID programs.

(U) Developmental Test and Evaluation. Developmental test and evaluation is
any type of engineering test used to verify the status of technical progress and that
design risks are minimized, substantiate achievement of technical performance,
and certify readiness for initial operational testing. Generally, those tests are



                                     30
measured by engineers, technicians, or soldier operator-maintainer test personnel
in a controlled environment to facilitate failure analysis.

(U) Evolutionary Acquisition. An evolutionary acquisition delivers capability
in increments, recognizing up front the need for future capability improvements.
There are two approaches to achieving an evolution acquisition: spiral
development and incremental development.

       •   Spiral Development. A desired capability is identified, but the end-
           state requirements are not known at program initiation. Requirements
           are refined through demonstration, risk management, and continuous
           user feedback. Each increment provides the best possible capability,
           but the requirements for future increments depend on user feedback
           and technology maturation.

       •   Incremental Development. A desired capability is identified and an
           end-state requirement is known. The requirement is met over time by
           developing several increments, each dependent on available mature
           technology.

(U) Family of Systems. A family of systems is a set or arrangement of
independent systems that can be interconnected in various ways to provide
different capabilities. The mix of systems can be tailored to provide desired
capabilities depending on the situation.

(U) Full-and-Open Competition. Full-and-open competition for a contract
means that all responsible sources are permitted to compete.

(U) Functional Area Analysis. A functional area analysis identifies the
operational tasks, conditions, and standards needed to achieve military objectives.

(U) Functional Capabilities Board. The Functional Capabilities Board is a
permanently established group that is responsible for the organization, analysis,
and prioritization of joint warfighting capabilities within an assigned functional
area.

(U) Functional Needs Analysis. A functional needs analysis assesses the ability
to accomplish the tasks identified under the full range of operating conditions and
to the designated standards. The functional needs analysis produces capability
gaps that require solutions, indicates the time frame in which those solutions are
needed, and may also identify redundancies in capabilities that reflect
inefficiencies.

(U) Independent Cost Estimate. An independent cost estimate is a life-cycle
cost estimate for an Acquisition Category I program that is prepared by an office
or other entity not under the supervision, direction, or control of the Military
Department, Defense agency, or other DoD Component that is responsible for
developing or acquiring the program. If the DoD Component is the decision
authority, then the independent cost estimate is prepared by an office or other
entity that is not responsible for developing or acquiring the program.


                                     31
(U) Initial Capabilities Document. An initial capabilities document describes a
need for a materiel approach to a specific capability gap resulting from an initial
analysis of materiel approaches by the operational user and an independent
analysis of materiel alternatives, as required. The initial capabilities document
defines the gap in terms of the functional area, the relevant range of military
operations, desired effects and time. It also summarizes the results of doctrine,
organization, training, materiel, leadership, personnel, and facilities analyses; and
describes why nonmateriel changes are inadequate to provide the desired
capability.

(U) Joint Capabilities Board. The Joint Capabilities Board assists the Joint
Requirements Oversight Council in performing its duties and responsibilities.
The Joint Capabilities Board reviews and, if appropriate, endorses all proposals
for the Joint Capabilities Integration and Development System and the Doctrine,
Organization, Training, Materiel, Leadership, Personnel, and Facilities Analysis
before they are submitted to the Joint Requirements Oversight Council. The Joint
Capabilities Board is chaired by the Joint Staff Director for Force Structure,
Resources, and Assessment.

(U) Joint Capabilities Integration and Development System. The Joint
Capabilities Integration and Development System supports the Chairman, Joint
Chiefs of Staff and the Joint Requirements Oversight Council in identifying,
assessing, and prioritizing joint military capability needs as required by law.

(U) Joint Requirements Oversight Council. The Joint Requirements Oversight
Council validates and approves the Joint Capabilities Integration and
Development System documents for programs of interest to the Joint
Requirements Oversight Council.

(U) Key Performance Parameters. Key performance parameters are those
capabilities that are considered to be so significant that failure to meet them can
be cause for a system to be reevaluated or the program to be reassessed or
terminated.

(U) Kinetic Energy. Kinetic energy is the energy of motion. An object which
has motion, whether it be vertical or horizontal motion, has kinetic energy.
Kinetic energy has many forms: vibrational (the energy due to vibrational
motion), rotational (the energy due to rotational motion), and translational (the
energy caused by moving from one location to another).

(U) Major Defense Acquisition Program. A major Defense acquisition
program is one that the Under Secretary of Defense for Acquisition, Technology,
and Logistics designates as a major Defense acquisition program, or is estimated
to require an eventual total expenditure for research, development, test and
evaluation of more than $365 million in FY 2000 constant dollars or, for
procurement, of more than $2.19 billion in FY 2000 constant dollars.




                                     32
(U) Manpower Estimate. A manpower estimate is an estimate of the number of
personnel required to operate, maintain, support, and train for the acquisition
when it is deployed. A manpower estimate is required for all Acquisition
Category I programs.

(U) Materiel Solution. A materiel solution is a Defense acquisition program
(nondevelopmental, modification of existing systems, or new program) that
satisfies or is a primary basis for satisfying identified warfighter capabilities. For
family-of-system approaches, an individual materiel solution may not fully satisfy
a capability gap on its own.

(U) Milestone Decision Authority. The milestone decision authority is the
designated individual who has the overall responsibility for a program and is
accountable for cost, schedule, and performance reporting to higher authority.
The milestone decision authority has the authority to approve the program’s entry
into the next phase of the acquisition process.

(U) Mission Need Statement. A mission need statement is a statement of the
operational capabilities needed to meet a specific threat.

(U) Modular Weapon System. A modular weapon system is the generic term
for various devices and accessories on firearm systems. A modular weapon
system adds flexibility and adaptability to many proven designs.

(U) Nondevelopmental Item. A nondevelopmental item is any previously
developed supply item used exclusively for Government purposes and requires
only minor modifications or modifications available commercially to meet the
requirements.

(U) Operational Requirements Document. An operational requirements
document lists the operational performance parameters for the proposed concept
or system.

(U) Operational Test Plan. An operational test plan documents specific
operational test scenarios, objectives, measures of effectiveness, threat
simulations, detailed resources, known test limitations and the methods for
gathering, reducing, and analyzing data.

(U) Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons,
equipment, or munitions to determine its effectiveness and suitability for use in
combat by typical military users and the evaluation of the results of such tests.

(U) Request for Proposal. A request for proposal is a solicitation used in
negotiated acquisitions to communicate Government requirements to prospective
contractors.

(U) Research, Development, Test, and Evaluation Budget. Research,
development, test, and evaluation funds are those appropriated for basic research;
applied research; advanced technology development; system development and


                                     33
demonstration; research, development, test, and evaluation management support;
and operational systems development.

(U) Statement of Assurance. The statement of assurance indicates whether the
management control program meets the standards, goals, and objectives of sound
and effectively implemented management controls.

(U) Study Advisory Group. An advisory group, formed by a study sponsor,
which has a clear functional interest in the study topic or use of the study results.
The Study Advisory Group provides assistance, coordination, and support to the
organization performing the study.

(U) System Development and Demonstration. The system development and
demonstration phase is the third phase of the DoD systems acquisition process,
which begins after the milestone decision to enter this phase. This phase consists
of system integration and system demonstration and contains a design readiness
review at the conclusion of the system integration effort.

(U) Tailoring. Tailoring is the manner in which certain core issues of a program,
such as program definition, structure, design, assessments, and periodic reporting,
are addressed. The milestone decision authority attempts to minimize the time to
satisfy an identified need in a manner that is consistent with common sense,
sound business management practice, applicable laws and regulations, and the
time-sensitive nature of the requirement itself.

(U) Technology Development. The technology development phase is the
second phase of the DoD systems acquisition process. The purpose of this phase
is to reduce technology risk and to determine the appropriate set of technologies
to be integrated into the full system. This phase is usually for advanced
development work and does not mean that a new acquisition program has been
initiated.

(U) Technology Development Strategy. A technology development strategy
documents the underlying reason for adopting an evolutionary strategy; a program
strategy, including overall cost, schedule, and performance goals for the total
research and development program; specific cost, schedule, and performance
goals, including exit criteria, for the first technology spiral demonstration; and a
test plan to demonstrate that the goals and exit criteria for the first technology
spiral are met. For either a spiral or an incremental evolutionary acquisition, the
technology development strategy includes a preliminary description of how the
program will be divided into technology spirals and development increments, the
appropriate number of prototype units that may be produced and deployed, how
these units will be supported, and the specific performance goals and exit criteria
that must be met.

(U) Test and Evaluation. Test and evaluation is a process that assesses
technical performance, specifications, and system maturity to determine whether
systems are operationally effective, suitable, and survivable for intended use.
Test and evaluation may also determine whether a system is lethal.



                                      34
(U) Test and Evaluation Master Plan. A test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework within which to generate detailed test and evaluation
plans, and it documents the schedule and resources for the test and evaluation
program. The test and evaluation master plan identifies the necessary activities
for developmental test and evaluation, operational test and evaluation, and
live-fire test and evaluation. Further, the test and evaluation master plan links
program schedule, test management strategy and structure, and required resources
with critical operational issues, critical technical parameters, and objectives and
thresholds in the operational requirements document.

(U) Undefinitized Contractual Action. An undefinitized contractual action is a
new procurement action entered into by the Government for which contractual
terms, specifications, or price are not agreed upon before the work begins. A
letter contract is an example of an undefinitized contractual action.




                                    35
Appendix C. DoD Office of Inspector General
            Memorandum Concerning Request
            for Proposal (U)




                     36
37
38
Appendix D. Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology)
            Response to DoD Office of Inspector
            General Memorandum (U)




                          39
40
41
42
Appendix E. Audit Response to Assistant
            Secretary of the Army (Acquisition,
            Logistics, and Technology)
            Comments on the DoD Office of
            Inspector General Memorandum (U)
           (U) Our detailed response to the comments from the Assistant Secretary of the
           Army (Acquisition, Logistics, and Technology) on statements in the DoD Office of
           Inspector General memorandum, “Audit of the Acquisition of the Objective
           Individual Combat Weapon Program,” May 27, 2005, follows. The complete text
           of those comments is in Appendix D and the DoD Office of Inspector General
           memorandum is in Appendix C of this report. The Assistant Secretary categorized
           selected segments of the DoD Office of Inspector General memorandum as
           concerns and commented on those concerns. The concerns included incomplete or
           unapproved documentation, proper Acquisition Category level, incomplete analysis
           of alternatives, further development of the qualitative analysis of the family of
           weapons requirement, and the use of OICW funds for the unrelated development of
           a new system without congressional new start notification. Further, the Assistant
           Secretary discussed the program’s entrance into the system development and
           demonstration phase of the acquisition process and completion of the OICW
           documentation for that phase.

           (U) Concern 1 - Incomplete and/or Unapproved Documentation. In response
           to this concern, the Assistant Secretary stated that the test and evaluation master
           plan and the acquisition program baseline were in draft form and would be updated
           for final approval based on the outcome of the competitive procurement. Further,
           he stated that the Army Requirements Oversight Council approved the capability
           development document on October 19, 2004, and entered Joint Requirements
           Oversight Council staffing on or about February 28, 2005, with anticipated
           completion in September 2005.8 The Assistant Secretary also stated that he had
           suspended the request for proposal until the capability development document
           completed the Joint Capabilities Integration and Development System process. In
           addition, he stated that all the necessary documents would be completed before the
           system development and demonstration decision in the third quarter of FY 2006.

           (U) Audit Response. The Assistant Secretary suspended the request for proposal
           until the capability development document completed the Joint Capabilities




8
    (U) In the August 24, 2005, minutes of the Joint Capabilities Board meeting, the Board stated that the
    capability development document for the OICW Increment I would not proceed without the results of the
    analysis of alternatives. As of October 2005, the Army has not provided the results of the analysis of
    alternatives to the Joint Capabilities Board.


                                                      43
           Integration and Development System process; however, he should suspend it until
           the system development and demonstration decision in the third quarter of FY 2006
           to ensure that the acquisition of the OICW complies with acquisition procedures
           required by DoD Instruction 5000.2, “Operation of the Defense Acquisition
           System,” May 12, 2003, and Army Regulation 70-1, “Army Acquisition Policy,”
           December 31, 2003.

           (U) Concern 2 - Proper Acquisition Category Level. In response to this
           concern, the Assistant Secretary stated that the OICW Program should be
           designated as an Acquisition Category I based on the result of meetings with the
           Office of the Under Secretary of Defense for Acquisition, Technology, and
           Logistics. Specifically, during those meetings, officials determined that the
           program was of sufficient size to be an Acquisition Category I program and had the
           potential for use by other Military Departments. Further, the Assistant Secretary
           anticipated that the Office of the Secretary of Defense would publish guidance
           concerning the Acquisition Category I designation after the analysis of alternatives
           is signed and available for review.

           (U) Audit Response. DoD Instruction 5000.2, “Operation of the Defense
           Acquisition System,” May 12, 2003, states that when a program has the potential
           for or has been designated as an Acquisition Category I program, the Director,
           Program Analysis and Evaluation will direct development of the analysis of
           alternatives and review the final analysis products. Therefore, the Assistant
           Secretary should involve and obtain guidance from the Office of the Director,
           Program Analysis and Evaluation on the alternatives to be considered in
           completing the analysis of alternatives.

           (U) Concern 3 - Incomplete Analysis of Alternatives. In response to this
           concern, the Assistant Secretary stated that the Study Advisory Group supported a
           system development and demonstration decision, and that he anticipated a formal
           analysis of alternatives in September 2005.9

           (U) Audit Response. We believe that the Study Advisory Group’s decision to
           support a system development and demonstration decision was premature because
           the program manager had not submitted the mandatory statutory and regulatory
           documents for the milestone decision review as required by DoD
           Instruction 5000.2 and identified in the Finding. As we have already discussed, the
           Office of the Director, Program Analysis and Evaluation is responsible for
           determining the adequacy and completeness of the analysis of alternatives before
           the system development and demonstration milestone decision.

           (U) Concern 4 - Qualitative Analysis of the Family of Weapons Requirement.
           In response to this concern, the Assistant Secretary stated that the U.S. Army
           Infantry Center and School conducted the Family of Weapons Analysis
           (Appendix A of the OICW Increment I Analysis of Alternatives) and provided it to
           the U.S. Army Training and Doctrine Command in May 2005. The


9
    (U) See Footnote 8, page 43.


                                                44
            Assistant Secretary also stated that the Project Manager Soldier Weapons
            compiled new operations and maintenance cost data for the existing weapons and
            developed a business case analysis that compares the OICW Increment I family of
            weapons to the existing weapons.

            (U) Audit Response. The Family of Weapons Analysis for the OICW
            Increment I states that reconfigurability is value added, but that, by itself, it is not
            sufficient to justify weapon replacement. It further states that the Family of
            Weapons capability is secondary to weapon performance and that a replacement
            weapon must be inherently better than the existing weapons.

            (U) Concern 5 - Use of OICW Funds. In response to this concern, the Assistant
            Secretary stated that, under the original operational requirements document, the
            Army referred to the OICW kinetic energy capability as the XM8 and based the
            funding to initiate the XM8 on the Army policy of spiraling out emerging
            technologies. Further, he stated that Congress had confirmed that they were
            properly notified.

            (U) Audit Response. The OICW funding was for the weapon system envisioned
            in the operational requirements document for the OICW and not for ************
            *******. ******************************************* ************
            ******************************************* ************
            ******************************************* ************
            *************************************************************
            ***************************************************. *********
            *************************************************************
            *************************************************************
            ***************************.. Further, he stated in the opinion that:
                         ************************************************************
                         *
                         ************************************************************
                         ***********************************************************

                         ************************************************************
                         *************

                         ************************************************
                         *********************************************************.

(U) For the Assistant Secretary to state that the Congress had confirmed that it was
properly notified brings into question whether Congress was properly notified. In the
Deputy Chief of Staff, G-3/5/7 response on November 29, 2004, to congressional Defense
committees, he stated that:
                         The XM-8 [XM8] is a prototype materiel solution development to meet
                         the Army’s future force requirements as outlined in the Objective
                         Individual Combat Weapon Capabilities [Capability] Development



*
    (U) Attorney client privilege, predecisional, and source selection sensitive data omitted.


                                                         45
                         Document. The Army is conducting testing and evaluation to support the
                         final weapon selection, in order to provide a significant improvement to
                         our warfighting capabilities.

            (U) The Army does not have a capability development document for the OICW
            approved by the Joint Requirements Oversight Council. As noted in the
            August 24, 2005, minutes of the Joint Capabilities Board meeting, the capability
            development document for the OICW Increment I would not proceed without the
            results of the analysis of alternatives. As of October 2005, the Army has not
            provided the results of the analysis of alternatives to the Joint Capabilities Board.
            Until the Army completes the analysis of alternatives, the Army will not know
            whether the incremental development of a combinable weapon, as detailed in the
            capability development document for the OICW, is the materiel solution that best
            satisfies warfighter needs. Additional expenditure of taxpayer funds for the
            development of the Incremental OICW would be premature until:

                     •   the program manager submits the mandatory statutory and regulatory
                         documents for the system development and demonstration milestone
                         decision review as required by DoD Instruction 5000.2; and
                     •   the Milestone Decision Authority approves entry of Increment I into the
                         system development and demonstration phase of the acquisition
                         process.
            (U) System Development and Demonstration. The Assistant Secretary stated
            that DoD 5000, paragraph 4.7.3.2.2.1 states that a program’s entrance into the
            system development and demonstration phase of the acquisition process depends
            on technology maturity, validated requirements, and funding. Further, he stated
            that all the necessary documents will be completed before the decision to enter the
            system development and demonstration phase.
            (U) Audit Response. We reviewed the DoD 5000 series of guidance, including
            DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003; DoD
            Instruction 5000.2; and the Defense Acquisition Guidebook to identify paragraph
            4.7.3.2.2.1, but did not find that reference. However, we did determine that DoD
            Instruction 5000.2, paragraph 3.7.2 states that entrance into the system
            development and demonstration phase depends on technology maturity (including
            software), approved requirements, and funding. Further, the paragraph states that
            programs entering the system development and demonstration phase of the
            acquisition process will have an initial capabilities document that provides the
            context in which the capability was determined and approved, and a capability
            development document that describes specific program requirements.
            (U) As of October 2005, the OICW Program did not have an approved initial
            capabilities document or a capability development document and was not
            approved to enter the system development and demonstration phase of the
            acquisition process; however, the Program was progressing as though it was in
            that phase of the acquisition process. Further, even though Increment I was not
            approved to enter system development and demonstration, the OICW Project
            Office was developing a materiel solution for a new ************** and was
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        46
also processing the request for proposal. By allowing Increment I to progress
without completing mandatory statutory and regulatory documents and without
obtaining approval to enter the system development and demonstration phase of the
acquisition process, the Army may have wasted $33 million in developing a
materiel solution before determining requirements.




                                   47
Appendix F. Project Manager Soldier Weapons
            Memorandum for XM8 Carbine (U)




                     48
49
Appendix G. Program Executive Officer Soldier
            Acquisition Decision Memorandum
            for XM8 Carbine (U)




                      50
51
Appendix H. Response to the Office of the
            Secretary of Defense and the
            Department of the Army Comments
            Concerning the Report (U)
    (U) Our detailed response to the comments from the Director, Defense Systems,
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics; the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology); the Principal Deputy Director, Program Analysis and Evaluation;
    and the Army Deputy General Counsel (Acquisition), Department of the Army
    Office of the General Counsel on statements in the draft report follow. The
    complete text of those comments is in the Management Comments section of this
    report.

Under Secretary of Defense for Acquisition, Technology, and
  Logistics Comments on the Finding and Audit Response (U)
    (U) Management Comments. The Director, Defense Systems, responding for
    the Under Secretary of Defense for Acquisition, Technology, and Logistics, stated
    that the issues related to program documentation, acquisition category, and
    operational requirements must be resolved to the satisfaction of the program’s
    milestone decision authority. Further, he stated that although the program
    documentation cited in the draft audit report is needed to support a milestone
    decision, it was not necessarily required before release of a request for proposal.
    The Director also stated that, as a result of this audit, the Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics became involved
    in the OICW Program by reviewing the program strategy, the analysis of
    alternatives, and the draft capability development document. In addition, he
    stated that the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics was working closely with the Army to determine the
    appropriate acquisition category for the OICW Program before the system
    development and demonstration decision.
    (U) Audit Response. We agree that the issues related to program
    documentation, acquisition category, and operational requirements must be
    resolved to the satisfaction of the program’s milestone decision authority.
    However, we do not agree that the program documentation cited in the draft audit
    report is not required before release of a request for proposal. It is prudent
    business judgment not to issue a request for proposal until after a program enters
    the system development and demonstration phase. This process ensures that the
    proposed program has complied with statutory and regulatory requirements and
    includes approved requirements and program goals. If the milestone decision
    authority does not authorize entry into the system development and demonstration
    phase of the acquisition process because the program does not comply with
    statutory and regulatory requirements and the required key program

                                         52
     documentation needed for decision making have not been prepared, the premature
     issuance of a request for proposal could result in suspending, revising, or
     terminating the proposal and exposing the Army to contractor liability charges. In
     turn, those conditions could result in a potential waste of resources; the
     diminished credibility or reputation of management; and the impaired fulfillment
     of essential missions or operations, such as meeting warfighter needs in a timely
     manner.

     (U) Although the current version of DoD Instruction 5000.2, May 12, 2003, does
     not specifically address issuing a request for proposal, Figure 2, “Requirements
     and Acquisition Process Depiction,” illustrates that the system development and
     demonstration milestone decision is the entrance point for each increment of an
     evolutionary acquisition. In addition, the Instruction requires the statutory and
     regulatory requirements in Enclosure 3 of the Instruction to be met at the system
     development and demonstration milestone decision. Further, the previous version
     of DoD Instruction 5000.2, April 5, 2002, stated that:
               At Milestone B [the system development and demonstration milestone
               decision] the MDA [milestone decision authority] shall confirm the
               acquisition strategy approved prior to release of the final Request for
               Proposal and approve the development acquisition program baseline,
               low-rate initial production quantities (where applicable), and System
               Development and Demonstration exit criteria (and exit criteria for interim
               progress review, if necessary).

     (U) Considering the requirements in the April 5, 2002, version of DoD
     Instruction 5000.2, the illustration and requirements in the current version of DoD
     Instruction 5000.2, and the need to know whether the milestone decision authority
     has approved the entrance of the program into the system development and
     demonstration phase, we continue to believe that prudent business judgment
     dictates that a program should be in the system development and demonstration
     phase of the acquisition process before a request for proposal is issued. Therefore,
     we added Recommendation 1.b. that recommends that the Under Secretary of
     Defense for Acquisition, Technology, and Logistics, in coordination with the
     Assistant Secretary of Defense (Network and Information Integration) and the
     Director, Operational Test and Evaluation, revise DoD Instruction 5000.2 to
     require the milestone decision authority to authorize the initiation of a new
     acquisition program before the program office issues a request for proposal.

Assistant Secretary of the Army (Acquisition, Logistics, and
  Technology) Comments on the Overall Report and Audit
  Response (U)
     (U) The Assistant Secretary provided comments on the overall management of
     OICW Increment I; on implementing management controls and responding to our
     May 27, 2005, memorandum as addressed in the Executive Summary of the
     report; on listing the OICW Program on the Operational Test and Evaluation
     oversight list; on releasing the request for proposal prematurely; on suspending



                                              53
the request for proposal as discussed in the Background section of the report; and
on management controls also in the Background section of the report.

(U) General Comments. The Assistant Secretary stated that until August 24,
2005, the OICW Increment I Program was managed as an Acquisition Category
(ACAT) II program.

(U) Audit Response. The OICW Increment I Program should have been
managed as an ACAT I program when the February 2005 approved acquisition
strategy and acquisition plan indicated that Increment I had the potential to be an
ACAT I program. Further, the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Director, Program Analysis and Evaluation
should have been notified of this potential ACAT I designation to determine
whether the program should be designated as an ACAT I program and to evaluate
and assess the analysis of alternatives, respectively. The May 27, 2005,
memorandum was the catalyst for the Assistant Secretary to notify the Under
Secretary of Defense for Acquisition, Technology, and Logistics of the potential
for the OICW Increment I to become an ACAT I program, as the Assistant
Secretary states later in his comments on this report.

(U) Implementation of Management Controls. The Assistant Secretary
commented that the Executive Summary of the report contends that the Army
neither implemented nor followed the management controls established in the
DoD 5000 series to correct the perceived weaknesses associated with the OICW
Program documentation, acquisition category classification, and capability
requirements. Further, he stated that DoD Instruction 5000.2 establishes a
simplified and flexible management framework and authorizes the milestone
decision authority to tailor procedures to achieve cost, schedule, and performance
requirements as long as they are consistent with statutory requirements and DoD
Directive 5000.1, “Defense Acquisition System,” May 12, 2003. The Assistant
Secretary believed that the OICW Program complied with every statute to date.

(U) Audit Response. DoD Instruction 5000.2 states that the purpose of the
Instruction is to establish “. . . a simplified and flexible management framework
for translating mission needs and technology opportunities, based on approved
mission needs and requirements, into stable, affordable, and well-managed
acquisition programs that include weapon systems . . . .” As noted, a simplified
and flexible management framework should be based on approved mission needs
and requirements; however, in the case of the OICW Increment I, the Joint
Requirements Oversight Council had not approved the capability development
document (requirements document) as of October 2005.

(U) DoD Instruction 5000.2 also states that, consistent with DoD
Directive 5000.1, the program manager and the milestone decision authority will
“exercise discretion and prudent business judgment to structure a tailored,
responsive, and innovative program.” Issuing a request for proposal before
determining the best alternative to meet the capability gap, approving
requirements, and determining the level of investment required by the Department
is neither prudent management nor consistent with best business practices.



                                     54
            (U) DoD Office of the Inspector General May 27, 2005, Memorandum. The
            Assistant Secretary stated that his detailed comments on our May 27, 2005,
            memorandum appeared to have been summarily dismissed and that the perceived
            program weaknesses have been elevated.

            (U) Audit Response. The Executive Summary, the Background, the Finding, and
            Appendix E of the draft and final reports discuss the Assistant Secretary’s July 27,
            2005, comments on our May 27, 2005, memorandum. Further, Appendix D
            contains the complete text of his comments. In addition, the program weaknesses
            have not been resolved as addressed in our May 27, 2005, memorandum in which
            we state that issuing the request for proposal on May 11, 2005, was premature
            because the Army had not completed the required program documentation,
            determined the appropriate acquisition category classification, and resolved issues
            with the OICW operational requirements document.

            (U) Director, Operational Test and Evaluation Oversight List. The Assistant
            Secretary stated that the OICW Program has been on the Director, Operational Test
            and Evaluation oversight list since 1996 for live-fire only; therefore, only the live-
            fire strategy, corresponding test plan, testing, and test reports were subject to
            Director, Operational Test and Evaluation approval. Further, he stated that the
            Director, Operational Test and Evaluation approved the OICW live-fire strategy.
            In addition, the Assistant Secretary stated that the operational test plan was due
            “prior to start of operational test and evaluation.”

            (U) Audit Response. The XM8, as the materiel solution for Increment I, appears
            on the 2005 Director, Operational Test and Evaluation Oversight List for
            operational testing. In addition, the XM25 and the XM29, as the materiel solutions
            for Increment II and Increment III, respectively, appear on the 2005 Director,
            Operational Test and Evaluation Oversight List for both operational testing and
            live-fire testing. Further, in September 2004, during the operational test readiness
            review for the XM8, the Director, Operational Test and Evaluation stated that he
            would not approve the test and evaluation master plan or the event design plan and
            would not sanction the limited user test until the XM8 had an approved capability
            development document, an acquisition decision memorandum, critical operational
            issues, and an acquisition strategy.

            (U) Regarding the operational test plan, *************************
            ****************************************************************
            ****************************************************************
            ************************************************************
            ********************************************************
            ****************************************************************. If
            the program enters directly into full-rate production and deployment when it is on
            the Director, Operational Test and Evaluation, Oversight List, the Instruction
            requires an operational test plan before the start of operational test and evaluation.
            However, ********************************************************
            **************************, we revised the report, where applicable, to
            remove the reference to the operational test plan.
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        55
(U) Premature Release of the Request for Proposal. The Assistant Secretary
stated that the report states that the Army was premature in its release of the
request for proposal because an applicable request for proposal should be issued
after a program enters the system development and demonstration phase of the
acquisition process. Further, he stated that the Army continues to believe that
DoD Instruction 5000.2 allows the Army Acquisition Executive to tailor
procedures to achieve cost, schedule, and performance goals. The Assistant
Secretary also stated that no statute or regulation requires a program to be in the
system development and demonstration phase of the acquisition process before a
request for proposal can be issued.

(U) Audit Response. As discussed in response to Under Secretary of Defense
for Acquisition, Technology, and Logistics comments and based on prudent
business judgment, a request for proposal should not be issued until after a
program enters the system development and demonstration phase to ensure that
the proposed program has complied with statutory and regulatory requirements,
including approved requirements and program goals. If the milestone decision
authority does not authorize entry into the system development and demonstration
phase of the acquisition process because the system does not comply with
statutory and regulatory requirements, including required key program
documentation needed for decision making, the premature issuance of a request
for proposal could result in suspending, revising, or terminating the proposal,
thereby wasting scarce DoD and contractor resources and extending the time to
satisfy warfighter needs.

(U) DoD Instruction 5000.2 states that, consistent with statutory requirements and
DoD Directive 5000.1, milestone decision authorities are authorized to tailor
procedures to achieve cost, schedule, and performance goals. Issuing a request for
proposal before completing key required program documentation needed for
decision making, determining the appropriate acquisition category, and resolving
issues with the OICW operational requirements document is not a prudent
approach for achieving cost, schedule, and performance goals.

(U) No statute or regulation requires a program to be in the system development
and demonstration phase of the acquisition process before a request for proposal
can be issued; however, the previous version of DoD Instruction 5000.2, April 5,
2002, stated that:
          At Milestone B [the system development and demonstration milestone
          decision] the MDA [milestone decision authority] shall confirm the
          acquisition strategy approved prior to release of the final Request for
          Proposal and approve the development acquisition program baseline,
          low-rate initial production quantities (where applicable), and System
          Development and Demonstration exit criteria (and exit criteria for interim
          progress review, if necessary).

(U) Although the current version of DoD Instruction 5000.2, May 12, 2003, does
not specifically address the issuance of a request for proposal, it illustrates in
Figure 2, “Requirements and Acquisition Process Depiction,” that the system
development and demonstration milestone decision is the entrance point for each
increment of an evolutionary acquisition. In addition, the Instruction requires the


                                         56
statutory and regulatory requirements in Enclosure 3 of the Instruction to be met at
the system development and demonstration milestone decision. Considering the
requirements in the April 5, 2002, version of DoD Instruction 5000.2; the
illustration and requirements in the current version of DoD Instruction 5000.2;
and the need to know whether the milestone decision authority has approved the
program to enter into the system development and demonstration phase, we
continue to believe that prudent business judgment dictates that a program should
be in the system development and demonstration phase of the acquisition process
before a request for proposal is issued. Therefore, we revised footnote 1 to state
that:
          Based on prudent business judgment, a request for proposal should not be
          issued until after a program enters the system development and
          demonstration phase of the acquisition process and complies with
          applicable statutory and regulatory requirements, including approved
          requirements and program goals. However, the OICW was not ready to
          enter the system development and demonstration phase because the
          required capability had not been approved; the required statutory and
          regulatory documents had not been prepared; and the program goals for
          the minimum number of cost, schedule, and performance parameters that
          describe the program over its life cycle had not been established.

(U) Suspension of the Request for Proposal. The Assistant Secretary stated
that he in effect suspended the program by suspending the request for proposal for
OICW Increment I. Further, he stated that no work other than supporting the Joint
Requirements Oversight Council process, replying to this audit report, and closing
out prior test actions is ongoing for the OICW Increment I Program.

(U) Audit Response. The Army should be preparing the program documentation
required by DoD Instruction 5000.2 to support a system development and
demonstration milestone review to provide the milestone decision authority with
the required key program documentation needed for objective acquisition decision
making. However, based on the Assistant Secretary’s comments, we deleted
footnotes 3 and 5 previously on pages 4 and 36, respectively. The footnotes stated
that:
          (U) In the July 27, 2005, memorandum, the Assistant Secretary of the
          Army (Acquisition, Logistics, and Technology) stated that he suspended
          the program; however, according to a representative from his office, the
          Assistant Secretary suspended the request for proposal and not the
          program.

(U) Management Control Weaknesses. The Assistant Secretary stated that the
report contends that the Office of the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) has a material weakness as identified in
DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
August 28, 1996. Further, he quoted the definitions of a material weakness and
flexibility from DoD Instruction 5010.40 and DoD Directive 5000.1, respectively.
In addition, the Assistant Secretary quoted the definition of “flexibility” in DoD
Directive 5000.1. Specifically:
          There is no one best way to structure an acquisition program to
          accomplish the objective of the Defense Acquisition System. MDAs
          [milestone decision authorities] and PMs [program managers] shall tailor

                                        57
                      program strategies and oversight, including documentation of program
                      information, acquisition phases, the timing and scope of decision reviews,
                      and decision levels, to fit the particular conditions of that program,
                      consistent with applicable laws and regulations and the time-sensitivity of
                      the capability need.

         (U) The Assistant Secretary stated that he previously determined that the OICW
         was an ACAT II program and had the necessary program documentation,
         including:

                  •   an analysis of alternatives that the Deputy Under Secretary of the
                      Army (Operations Research) approved and stated could support a
                      system development and demonstration but was insufficient to support
                      any form of production decision,

                  •   an equivalent analysis for an initial capabilities document,

                  •   a capability development document that the Army Requirements
                      Oversight Council approved,

                  •   an approved acquisition strategy, and

                  •   an approved acquisition plan.

         (U) In addition, the Assistant Secretary stated that the test and evaluation master
         plan, the acquisition program baseline, the affordability assessment, the cost
         analysis requirements description, the Army cost position, the manpower estimate,
         and the technology development strategy would be completed before the system
         development and demonstration decision in the third quarter of FY 2006. He also
         stated that those documents were not required until the milestone decision.
         Further, the Assistant Secretary stated that DoD Instruction 5000.2 does not
         require an operational test plan until before the start of operational test and
         evaluation.

         (U) Audit Response. The management controls for the OICW Program do not
         provide reasonable assurance that this intended investment of public resources has
         sufficient underlying program cost and requirement information for decision
         making, thereby raising concerns about effective stewardship of public resources.
         We believe that the weakness is serious enough to bring to the attention of higher
         level management. The Assistant Secretary should have conducted a system
         development and demonstration review before allowing the issuance of the
         request for proposal to reduce the risk of Government liability to contractors
         should the analysis of alternatives determine that a new family of weapons is not
         the best alternative for the Department or the Joint Requirements Oversight
         Council does not approve the OICW Increment I Capability Development
         Document.10 If the results of the analysis of alternatives determine that a new


10
  (U) Section 153, title 10, United States Code states that the Chairman of the Joint Chiefs of Staff is
 responsible for assessing military requirements for Defense acquisition programs.


                                                      58
     family of weapons is not the best alternative or the Joint Requirements Oversight
     Council does not approve the OICW Increment I Capability Development
     Document, the Army could be exposed to contractor liability issues; a potential
     waste of resources; diminished credibility or reputation of management; and
     impaired fulfillment of essential mission or operations, such as meeting warfighter
     needs in a timely manner.

     (U) The Assistant Secretary should use flexibility in structuring an acquisition
     program. However, in doing so, he should “exercise discretion and prudent
     business judgment to structure a tailored, responsive, and innovative program.”
     Issuing a request for proposal before determining the best alternative to meet the
     capability gap, approving requirements, and determining the level of investment
     required by the Department, is not prudent management or consistent with best
     business practices.

     (U) DoD Instruction 5000.2 requires the completion of required statutory and
     regulatory documentation before the system development and demonstration
     decision to enable the milestone decision authority to make an informed decision as
     to whether to approve the initiation of a new acquisition program. Without
     completing the test and evaluation master plan, the acquisition program baseline,
     the affordability assessment, the cost analysis requirements description, the
     manpower estimate, and the technology development strategy before issuing the
     request for proposal, the Army cannot ensure that the request for proposal
     adequately communicates approved Government requirements to prospective
     contractors so that the warfighter receives a quality product that satisfy their needs
     with measurable improvements to mission capability and operational support, in a
     timely manner. Those documents provide the test and evaluation plan needed to
     determine whether the system is operationally effective, suitable, and lethal; the
     key cost, schedule, and cost constraints; life-cycle cost estimates, a description of
     the technical and programmatic features of the program; and the rationale for
     adopting an evolutionary strategy.

     (U) Regarding the operational test plan, see our response to the Assistant
     Secretary’s previous comments about the “Director, Operational Test and
     Evaluation Oversight List.” As discussed before, we revised the report, where
     applicable, to remove the reference to the operation test plan.

Assistant Secretary of the Army (Acquisition, Logistics, and
  Technology) Comments on Finding and Audit Response (U)
     (U) The Assistant Secretary commented on implementing management controls,
     releasing the request for proposal prematurely, having the necessary program
     documentation, approving the analysis of alternatives, determining that the
     program was of sufficient size to be an ACAT I program, developing a new rifle,
     supporting the urgent need statement for a lighter weapon, delivering 200 XM8
     carbines, identifying the milestone decision authority, following DoD
     Instruction 5000.2 guidelines, notifying Congress, complicating the OICW
     Increment I Acquisition Strategy, briefing Congress, and commenting on the
     report’s conclusion.

                                          59
(U) Implementation of Management Controls. The Assistant Secretary
provided comments similar to those he made concerning the discussion,
“Implementation of Management Controls,” associated with the Executive
Summary. In addition to those comments, he stated that, as the milestone decision
authority for the ACAT II Program, he assessed the risk of releasing the request
for proposal after the Army Requirements Oversight Council approved the
capability development document but before the Joint Requirements Oversight
Council approved the acceptability of the capability development document.
Further, the Assistant Secretary stated that, in considering the interim
recommendation of the May 27, 2005, DoD Office of Inspector General
memorandum, the Army suspended that request for proposal until the Joint
Requirements Oversight Council approved the OICW Increment I capability
development document. He also stated that the Army was reviewing its options
on canceling the request for proposal. In summary, the Assistant Secretary stated
that the Army had not breached any statutory requirements and believed that it
followed the DoD 5000 series as appropriate in the execution and management of
the OICW Increment I Program.

(U) Audit Response. In addition to our response to the Assistant Secretary’s
previous comments about the “Implementation of Management Controls”
associated with the Executive Summary, we believe that the release of the request
for proposal after the Army Requirements Oversight Council approved the
capability development document but before the Joint Requirements Oversight
Council approved the capability development document is not an acceptable risk.
If the Joint Requirements Oversight Council does not approve the OICW
Increment I Capability Development Document, the Army could be exposed to
contractor liability issues; a potential waste of resources; diminished credibility or
reputation of management; and impaired fulfillment of essential mission or
operations, such as meeting warfighter needs in a timely manner. In addition,
issuing a request for proposal before determining the best alternative to meet the
capability gap, approving requirements, and determining the level of investment
required by the Department, even though not a statutory breach, is neither prudent
management nor consistent with best business practices.

(U) Premature Release of the Request for Proposal. The Assistant Secretary
provided comments similar to those he made concerning the discussion,
“Premature Release of the Request for Proposal,” associated with the Executive
Summary.

(U) Audit Response. See our response to the Assistant Secretary’s previous
comments about the “Premature Release of the Request for Proposal” discussion
associated with the Executive Summary.

(U) Necessary Program Documentation. The Assistant Secretary provided
comments similar to those he made concerning necessary documentation in the
discussion of “Management Control Weaknesses” associated with management
controls in the Background section of the report.




                                      60
(U) Audit Response. See our response to the Assistant Secretary’s previous
comments about the “Management Control Weaknesses” discussion associated
with management controls in the Background section of the report.

(U) Approval of the Analysis of Alternatives. The Assistant Secretary
provided comments similar to those he made concerning the discussion of
“Management Control Weaknesses” associated with management controls in the
Background section of the report. In addition to those comments, he stated that the
Study Advisory Group approved the analysis of alternatives, as presented, only
to support the capability development document through the Joint Requirements
Oversight Council process. Further, the Assistant Secretary again referred to the
Deputy Under Secretary of the Army (Operations Research) statement that the
[incomplete] analysis of alternatives could support a system development and
demonstration decision but was insufficient to support any form of production
decision. However, the Assistant Secretary also stated that, at the February 9,
2005, Study Advisory Group final review of the analysis of alternatives, the
Deputy Under Secretary of the Army requested that the:

       •   U.S. Army Training and Doctrine Command, supported by the Army
           Materiel Systems Analysis Activity, the Army Deputy Chief of Staff
           (G-4), and the Program Executive Officer Soldier, provide the results
           of the effort led by the Army Training and Doctrine Command to
           expand the qualitative analysis of the family of weapons;
       •   Program Executive Officer Soldier provide existing XM8 performance
           data to the Office of the Director, Program and Analysis after
           consulting with the Assistant Secretary of the Army (Acquisition,
           Logistics, and Technology) on the transfer of potentially competition
           sensitive data;
       •   Program Executive Officer Soldier clarify what needed to be done to
           mount a multi-purpose sighting system on an existing M4, and expand
           on the value to the force of a multi-purpose sighting system rather than
           the separable systems;
       •   Army Materiel Systems Analysis Activity, supported by the Army Test
           and Evaluation Command and the Program Executive Officer Soldier,
           revisit the analysis supporting key performance parameter 4,
           “Reliability,” and report back to the Study Director on impacts to the
           stated conclusions;
       •   Army Training and Doctrine Command Requirements Analysis
           Center, the Deputy Assistant Secretary of the Army for Cost and
           Economics, and the Army Deputy Chief of Staff (G-8) Force
           Development revisit cost assumptions; revise the cost analysis and
           follow-on affordability assessment, as appropriate; and report back to
           the Study Advisory Group;
       •   Project Manager Soldier Weapons provide current operations and
           maintenance cost data for the current weapons to the Study Team for the
           updated cost and affordability analyses; and



                                    61
       •   Department of the Army reassess the need for further analysis (beyond
           that detailed above) associated with OICW and, if appropriate, issue
           updated guidance to the Army Training and Doctrine Command in a
           new tasking directive.

(U) In addition, the Assistant Secretary stated that the Army Training and Doctrine
Command and the Project Manager Soldier Weapons would coordinate with the
Office of the Director, Program Analysis and Evaluation, and the Department of
the Army to resolve issues identified with the cost estimate results, cost
comparisons, and any other issues identified in the analysis of alternatives and
business case analysis.

(U) Audit Response. In addition to our response to the Assistant Secretary’s
previous comments about “Management Control Weaknesses” associated with
management controls in the Background section of the report, we question the
prudence of the decision to approve the analysis of alternatives because of the
unresolved issues. Specifically, the analysis of alternatives had unresolved issues
associated with:

       •   the qualitative analysis of the family of weapons;
       •   the transfer of potentially competition sensitive data;
       •   the multi-purpose sighting system;
       •   the reliability key performance parameter;
       •   cost assumptions, cost analysis, and the affordability assessment;
       •   operations and maintenance cost data;
       •   the potential need for further analysis and updated guidance; and
       •   the cost estimate results, cost comparisons, and other issues identified in
           the analysis of alternatives and business case analysis.

Those issues raise questions as to the sufficiency of the analysis of alternatives to
support approval of the capability development document through the Joint
Requirements Oversight Council and a decision to enter the system development
and demonstration milestone phase of the acquisition process.

(U) Acquisition Category I Program. The Assistant Secretary stated that the
draft report references the response he made to representatives of the DoD Office
of Inspector General concerning the ACAT level of the OICW Program. In that
memorandum, the Assistant Secretary stated that, in the meetings held with the
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, it was determined that the program was of sufficient size to be an
ACAT I program and had the potential for use by other Military Departments.
Further, the Assistant Secretary anticipated that the Office of the Secretary of
Defense would publish guidance concerning the ACAT I designation after the
analysis of alternatives is signed and available for review. He also stated that his
office was notifying the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics of the potential for a breach of the threshold for an
ACAT I program.

                                      62
            (U) Audit Response. The notification of the Office of the Under Secretary of
            Defense for Acquisition, Technology, and Logistics by the Office of the Assistant
            Secretary concerning the potential breaching of the threshold for an ACAT I was a
            direct result of the DoD Office of Inspector General May 27, 2005, memorandum.
            Through use of the management controls established by the DoD 5000 series, the
            Assistant Secretary would previously have had the necessary information to inform
            the Office of the Under Secretary of Defense for Acquisition, Technology, and
            Logistics of the potential for a breach of the threshold for an ACAT I program, as
            required.

            (U) Development of a New Rifle. The Assistant Secretary stated that the
            February 2000 operational requirements document for the OICW, which the Army
            Training and Doctrine Command approved, required a dual weapon system that
            could fire high explosive airburst munitions as well as the standard 5.56 millimeter
            munitions. Further, he stated that the operational requirements document also
            required the two capabilities to separate and the 5.56 millimeter weapon to operate
            in stand-alone mode. The Assistant Secretary also stated that the OICW
            5.56 millimeter weapon was the genesis for the XM8 carbine and then the family of
            weapons. In addition, he stated that the capability development document, which
            the Army Requirements Oversight Council approved, specifies that the Increment I
            and Increment II capabilities will be capable of combining into a dual weapon
            system in Increment III.

            (U) Audit Response. The February 2000 operational requirements document for
            the OICW states that the OICW is a dual weapon system that combines high-
            explosive airbursting munitions, secondary kinetic energy munitions, and a rugged
            day and night, full-solution, target-acquisition and fire-control system to affect
            decisively violent and suppressive targets. Further, the operational requirements
            document requires the OICW to be designed to permit reconfiguration into a
            separate, kinetic energy, stand-alone subsystem. The operational requirements
            document also requires the OICW target-acquisition and fire-control system to
            function with the OICW kinetic energy subcomponent. ***
            **************************************************************
            **********************************, *****************************
            ***************************************************************
            ************************************************************
            **********. Consequently, *************************************
            ******************************************************************
            *************. Specifically, the OICW Increment I is a ********************
            ************************************************************
            ************************************************************
            ************************************************************
            ************************************************************
            ***************************************************************
            ****************************************************************
            ************************************************************
            ***********************************.

*
    (U) Predecisional and source selection sensitive data omitted.


                                                        63
            (U) ***************************************************************
            *******************************************************************
            *******************************************************************
            ***************************************.

            (U) Support for Urgent Need Statement for a Lighter Weapon. The Assistant
            Secretary commented that the draft report states that, “As of August 2005, the
            Project Manager Soldier Weapons Office had not provided documentation that
            supported the urgent need for a lighter weapon.” The Assistant Secretary stated
            that the Project Manager Soldier Weapons office prepared and provided an
            extensive file that addressed the reasons for the urgent need for lighter weapons
            and that the file was delivered to the DoD Office of Inspector General on July 13,
            2005.
            (U) Audit Response. The file delivered on July 13, 2005, did not support an
            urgent need for lighter weapons. The file, which supported the September 9,
            2002, memorandum, “Urgent U.S. Army Requirement for the XM8 Lightweight
            Carbine,” contained two briefing packages and neither supported the need for
            lighter weapons. The July 13, 2005, file also contained an undated and unsigned
            Soldier Load Study Report. The Soldier Load Study Report stated that “This
            document is a compilation of several studies and doctrinal resources that focus on
            Soldier’s load.” The two most recent studies, dated July 1996 and February 1988,
            and the oldest study, dated September 1963, follow:
                     •   Soldier Performance and Strenuous Road Marching: Influence of Load
                         Mass and Load Distribution, Joseph J. Knapik, Military Medicine, July
                         1996;
                     •   Technology Demonstration for Lightening the Soldier’s Load,
                         James B. Sampson, Natick Research Development and Engineering
                         Center, February 1988; and
                     •   A Study to Conserve the Energy of the Combat Infantryman, U.S.
                         Army Combat Developments Command Infantry Agency, September
                         1963.
            Those outdated studies do not directly support the September 9, 2002, urgency
            statement.
            (U) We contacted the Project Manager Soldier Weapons on July 18, 2005, with
            specific questions about the memorandum and the July 13, 2005, supporting
            documentation with a suspense date of July 21, 2005. On July 27, 2005, the
            Project Manager Soldier Weapons stated that he was working on responses to our
            questions. As of October 2005, we are still waiting for a response from the
            Project Manager Soldier Weapons.
            (U) Delivery of 200 XM8s. The Assistant Secretary commented that the delivery
            of the 200 XM8s under the modification to contract DAAE30-00-C1 065 was
            required for developmental testing of the family of weapons to verify the OICW
            Increment I concept. Further, he stated that the basis for the 5.56 millimeter
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        64
            weapon in Increment I was the kinetic energy portion of the original XM29
            OICW. The Assistant Secretary’s comments also stated that it was necessary to
            modify the OICW contract, rather than compete, to maintain maximum
            commonality (operating system, attachment points, and weight) with the high-
            explosive, airburst portion of the XM29. Further, he stated that a competition
            would have brought the unacceptable risk that Increment I and Increment II could
            not be combined into the dual XM29 weapon system of Increment III. In addition,
            the Assistant Secretary stated that, until the developmental testing was completed,
            the concept was just that, a concept. He concluded that no operational
            requirement was necessary to explore different concepts for a materiel solution.
            (U) Audit Response. **********************************************
            *******************************************************************
            *******************************************************************
            ***. However, the Army did not, and does not, have an approved requirement
            for a family of weapons. Although the Army Requirements Oversight Council
            approved the OICW Increment I Capability Development Document in
            October 2004, the Joint Requirements Oversight Council has not approved the
            capability development document. Further, the Project Manager Soldier Weapons
            did not provide support for his urgent needs statement for a lighter weapon. The
            urgent needs statement states that the XM8 carbines would be used to support
            development that requires the warfighter’s weapons to be lighter, low cost, and
            low risk. The urgent needs statement did not identify the combination of the XM8
            with the high explosive airburst as a reason for modifying the existing XM29
            contract. Therefore, the contract modification for the development of the XM8
            family of weapons was outside the scope of the OICW operational requirements
            document and was not supported by an approved capability development
            document required to initiate a new acquisition program.
            (U) Identification of the Milestone Decision Authority. The Assistant
            Secretary stated that the Department of the Army Acquisition Information
            Management Database identified the Program Executive Officer Soldier as the
            milestone decision authority for the XM8 Program as of June 11, 2003. Further,
            he stated that the Future Combat Rifle requirements document was being drafted
            at the Army Infantry Center. The Assistant Secretary also stated that the
            requirement was not competed because the risk to the program would be too great
            in that combining a potentially dissimilar operating mechanism with the
            airbursting weapon would, at worst, be technically impossible and, at best, weight
            prohibitive. In addition, he stated that, until the developmental testing was
            completed, the concept was just that, a concept. The Assistant Secretary
            concluded that no operational requirement was necessary to explore different
            concepts for a materiel solution.
            (U) Audit Response. On April 4, 2001, the Army Acquisition Executive
            designated himself as the milestone decision authority for the OICW Program.
            However, the Army Acquisition Information Management Database identified the
            Program Executive Officer Soldier as the milestone decision authority for the
            XM8 program, which the Program Executive Officer Soldier initiated with his

*
    (U) Predecisional and source selection sensitive data omitted.


                                                        65
June 11, 2003, acquisition decision memorandum. We contacted the Assistant
Secretary’s office to determine when and by whom was the Program Executive
Officer Soldier designated as the milestone decision authority for the XM8
program and whether such designation superseded the Army Acquisition
Executive’s authority as the milestone decision authority for the OICW Program.
In addition, we requested that the Assistant Secretary’s office provide
management control procedures for modifying the milestone decision authority
authorizations in the Army Acquisition Information Management Database. As of
October 2005, we are still waiting for a response from the Assistant Secretary’s
office.
(U) The Future Combat Rifle requirement was the basis for the XM8 family of
weapons; however, the operational requirements document for the Future Combat
Rifle did not exist when the Program Executive Officer Soldier authorized the
entry of the XM8 into the system development and demonstration phase of the
acquisition process. The Future Combat Rifle was only a concept, as the
Assistant Secretary stated. A contract modification should not have been made,
let alone competed, because an operational requirement did not exist for the XM8
family of weapons. In addition, the Program Executive Officer Soldier should not
have initiated the system development and demonstration phase for the XM8
program without requiring the preparation and completion of the minimum
documentation: an initial capabilities document, an analysis of alternatives, cost
and affordability analyses, a capability development document, or a competition
for a stand-alone family of weapons. See Appendix G for the June 11, 2003,
acquisition decision memorandum.

(U) Followed DoD Instruction 5000.2 Guidelines. The Assistant Secretary
provided comments similar to those he made concerning the discussion of
“Management Control Weaknesses” associated with management controls in the
Background section of the report. He concluded by stating that he had sufficient
information to direct the competition as well as the request for proposal.

(U) Audit Response. See our response to the Assistant Secretary’s previous
comments about the “Management Control Weaknesses” discussion associated
with management controls in the Background section of the report. As discussed
before, we concluded that directing the competition of OICW Increment I and
issuing the Increment I request for proposal before the Joint Staff approved the
requirement for the Increment I family of weapons to support those actions was
neither prudent nor consistent with best business practices and prudent acquisition
procedures.

(U) Competition and the Request for Proposal. The Assistant Secretary
provided comments similar to those he made concerning the discussion,
“Management Control Weaknesses,” associated with management controls in the
Background section of the report. He concluded by stating that he had sufficient
information to direct the competition as well as the request for proposal.

(U) Audit Response. See our response to the Assistant Secretary’s previous
comments about the “Management Control Weaknesses” discussion associated
with management controls in the Background section of the report. As discussed


                                     66
before, we concluded that directing the competition of OICW Increment I and
issuing the Increment I request for proposal before the Joint Staff approved the
requirement for the Increment I family of weapons to support those actions was
neither prudent nor consistent with best business practices and prudent acquisition
procedures.
(U) Notification of Congress. The Assistant Secretary stated that, as part of the
regular reporting process of Exhibit P-40, “Budget Item Justification Sheet,”
(P forms) and Exhibit R-2, “Army RDT&E [research, development, test, and
evaluation] Budget Item Justification,” (R forms) and frequent briefings, the Army
had been keeping Congress informed of the progress and changes in the acquisition
strategy for the entire OICW Program. Further, he stated that the information
started with the original dual weapon system OICW and then proceeded to the
Increment I family of weapons, the Increment II airburst weapon system, and the
Increment III dual weapon system. The Assistant Secretary also stated that
Congress had confirmed that they were properly notified.
(U) Audit Response. We reviewed Exhibits P-40 and R-2 for the OICW Program
from FY 2004 through FY 2006 and determined that:
       •   Exhibit P-40 for the Integrated Air Burst Weapon System Family
           (G16101), February 2004, states that the XM8 assault weapon is a new
           start under G16102 as a spiral development program from the
           5.56 millimeter kinetic energy carbine portion of the XM29.
       •   Exhibit P-40 for XM8 Carbine (5.56 millimeter) (G16102), February
           2004, states that the XM8 assault weapon is a new start as a spiral
           development program from the 5.56 millimeter kinetic energy carbine
           portion of the XM29.
       •   Exhibit P-40 for the Integrated Air Burst Weapon System Family
           (G16101), March 2004, states that the XM8 assault weapon is a new
           start under G16102 as a spiral development program from the
           5.56 millimeter kinetic energy carbine portion of the XM29.
       •   Exhibit P-40 for XM8 Carbine (5.56 millimeter) (G16102), March
           2004, states that the XM8 assault weapon is a new start as a spiral
           development program from the 5.56 millimeter kinetic energy carbine
           portion of the XM29. Further, the Exhibit states that the XM8
           represents the state-of-the-art 5.56 millimeter assault weapon having
           four variants: a baseline assault weapon, a sharpshooter variant, an
           automatic rifle variant, and a compact variant. The Exhibit also states
           that a report, “Army Assault Rifle Early Transformation,” on the XM8
           carbine was submitted to the congressional Defense committees in
           August 2003.
       •   Exhibit P-40 for XM8 Carbine (5.56 millimeter) (G16102), February
           2005, states that the XM8 modular assault weapon is the first increment
           of the OICW Program. Further, the Exhibit states that the XM8 is a
           multi-configurable weapon that has four variants: a baseline assault
           weapon, a designated marksman, a special compact, and a light machine
           gun.

                                     67
                     •   Exhibit R-2A for 0603802A-Weapons and Munitions-Advanced
                         Development, February 2003, states that the lightweight XM8 carbine
                         derivative of the XM29 was being evaluated to replace M4 carbines.

                     •   Exhibit R-2 for 0603802A-Weapons and Munitions-Advanced
                         Development, February 2004, states that the first spiral of the XM29
                         will be the XM8 assault weapon.

                     •   Exhibit R-2A for 0604802A-Weapons and Munitions-Advanced
                         Development, February 2004, states that the XM8 assault weapon is a
                         spiral development program from the 5.56millimeter kinetic energy
                         carbine portion of the XM29. Further, the Exhibit states that the XM8
                         will have four variants, a baseline assault weapon, a sharpshooter
                         variant, an automatic rifle variant, and a compact variant.

                     •   Exhibit R-2 for 0603802A-Weapons and Munitions-Advanced
                         Development, February 2005, states that the XM8 modular assault
                         weapon is the first increment of the OICW Program and that the XM25
                         airburst assault weapon is the second increment.

            (U) Although the Assistant Secretary stated that Congress confirmed that they
            were properly notified, the exhibits did not show that the Army did not, and still
            does not, have an approved requirement for a family of weapons to replace **
            *******************************; and that the OICW Increment I capability
            development document had not been approved by the Joint Requirements
            Oversight Council. Based on the Assistant Secretary’s comments, we revised the
            report to state that:
                         (U) In response to the draft report, the Assistant Secretary of the Army
                         (Acquisition, Technology, and Logistics) stated that, as part of the regular
                         reporting process of Exhibit P-40, “Budget Item Justification Sheet,”
                         (P forms) and Exhibit R-2, “Army RDT&E [research, development, test,
                         and evaluation] Budget Item Justification,” (R forms) and frequent
                         briefings, the Army had been keeping Congress informed of the progress
                         and changes in the acquisition strategy for the entire OICW program.
                         Exhibit P-40 for the Integrated Air Burst Weapon System Family
                         (G16101), February 2004, shows that the XM8 assault weapon is a new
                         start under G16102 as a spiral development program from the
                         5.56 millimeter kinetic energy carbine portion of the XM29. In addition,
                         Exhibit P-40 for XM8 Carbine (5.56 millimeter) (G16102), February 2005,
                         shows that the XM8 modular assault weapon is the first increment of the
                         OICW Program. Further, the Exhibit shows that the XM8 is a multi-
                         configurable weapon that has four variants: a baseline assault weapon, a
                         designated marksman, a special compact, and a light machinegun.
                         However, the exhibits did not show that the Army did not, and still does
                         not, have an approved requirement for a family of weapons
                         ************************************************. *******

                         **********************************************************.
                         **************************************************** ******.


*
    (U) Predecisional and source selection sensitive data omitted.


                                                        68
(U) Complication of the OICW Increment I Acquisition Strategy. The
Assistant Secretary restated the comments that he made in his discussion of the
“Management Control Weaknesses” associated with management controls in the
Background section of the report about the Deputy Under Secretary of the Army
(Operations Research) approval of the analysis of alternatives, the initial
capabilities document, an Army Requirements Oversight Council-approved
capability development document, and his approval of the acquisition strategy and
the acquisition plan. The Assistant Secretary also stated that the OICW
Increment I Capabilities Development Document, which the Army Requirements
Oversight Council approved, states that:
          The USAIC [U.S. Army Infantry Center], Joint Service Small Arms
          Program (JSSAP), and the Office of the Product Manager, Individual
          Weapons (OPM-IW) are aware of and are monitoring the development
          of OICW (Increment 1)-like capabilities of other services, allies, and
          nations. The U.S. Marine Corps, U.S. Navy, U.S. Air Force, U.S. Special
          Operations Command, and U.S. Coast Guard have been involved in an
          interchange of information with the U.S. Army concerning the OICW
          (Increment I) system to identify potential joint service requirements that
          could be met by the OICW (Increment I) system. Great potential exists
          for sharing, leveraging, or interfacing with these programs to support the
          OICW (Increment I) program goals. Subsequent increments will be
          based upon feedback from System Development and Demonstration
          activities of Increment I and will be shown as a requirement in the
          capability development document update for Increment II (Spiral
          Development).

          Increment I: Family of KE [kinetic energy] weapons
          Increment II: HEAB [high explosive, air bursting] (Lethal and Non-
          lethal) munitions; integrated day/night fire control system
          Increment Ill: Dual KE and HEAB system

          Since both KE and HEAB technology must come together for an
          Increment III weapon system, a parallel development path will be
          pursued for both KE and HEAB weapon sub-systems. Increment I
          Production and Deployment will provide Initial and Full Operational
          Capability to the current force during FY08. First Unit Equipped (FUE)
          with Increment II HEAR is tentatively scheduled for FY10, and an
          improved lethality design will be available (Increment Ill) to support IOC
          in FY14. Increment III will realize the full lethality potential first
          envisioned in the original OICW ORD [operational requirements
          document].

(U) In addition, the Assistant Secretary restated his comments about “flexibility”
that he made in his discussion of the “Management Control Weaknesses”
associated with management controls in the Background section of the report.
The Assistant Secretary concluded that, because the OICW Increment I
Acquisition Strategy did not require or plan for integration with the other
increments, the Project Manager Soldier Weapons did not want to complicate the
document. He stated that the integration would be addressed as part of the
acquisition strategy for Increment III and referenced the original Increment I
capabilities development document. The Assistant Secretary also stated that
Increment I provides a modular weapon system at a lighter weight with a reduced



                                         69
            logistics footprint, thereby advancing the Army towards a leap-ahead capability
            provided by the dual weapon system envisioned in the original February 2000
            OICW Operational Requirements Document. In addition, he stated that Congress
            confirmed that they have been properly notified; therefore, OICW Increment I did
            not constitute a new start program for the Army.
            (U) Audit Response. In addition to our response to the Assistant Secretary’s
            previous comments about “Management Control Weaknesses” associated with
            management controls in the Background section of the report, we believe that not
            requiring or planning in the OICW Increment I Acquisition Strategy to integrate
            Increment I with the other Increments II and III is not a prudent business decision.
            Specifically, by not planning to integrate Increment I with the other increments,
            which would include requiring the OICW target-acquisition and fire-control system
            to function with the OICW kinetic energy subcomponent, the Army will have to
            modify the OICW Increment I stand-alone subsystem at a later date to be capable
            of combining into a dual weapon system in Increment III. Further, because the
            OICW Increment I is a ******************, the necessary software and controls
            to operate the target-acquisition and fire-control system will not be incorporated
            into the design of the Increment I materiel solution. Therefore, the Army will have
            to design a new kinetic energy weapon that includes the software and controls
            needed to operate the target-acquisition and fire-control system and to complete the
            integration with the high-explosive airbursting component of the OICW, as
            envisioned in OICW Increment III.
            (U) Regarding whether OICW Increment I constituted a new start program for the
            Army, the Army stated that the XM8 modular assault weapon was a new start as a
            spiral development program from the 5.56 millimeter kinetic energy carbine
            portion of the XM29 and was the first increment of the OICW Program as noted
            above in Exhibits P-40 for XM8 Carbine (5.56 millimeter) (G16102), February
            2004 and February 2005.
            (U) Briefings to Congress. The Assistant Secretary restated his previous
            comments about notifying Congress about the OICW Program. He also stated that
            the draft audit report mentioned briefings to various congressional members.
            However, the Assistant Secretary stated that those briefings were just additional
            information that the Exhibits P-40, “Budget Item Justification Sheet,” and R-2,
            “Army RDT&E Budget Item Justification,” could not accommodate.
            (U) Audit Response. In addition to our response to the Assistant Secretary’s
            previous comments concerning the discussion, “Notification of Congress,” we
            continue to believe that the briefings to Congress did not adequately address the
            requirement for a family of weapons or the approval of such a requirement.
            (U) Comments on the Report’s Conclusion. The Assistant Secretary provided
            comments similar to those he made concerning the discussion, “Implementation of
            Management Controls,” associated with the Executive Summary. In addition to
            those comments, he provided comments similar to those he made concerning
            necessary documentation in the discussion, “Management Control Weaknesses,”
            associated with management controls in the Background section of the report.
*
    (U) Predecisional and source selection sensitive data omitted.


                                                        70
    The Assistant Secretary also stated that, in consideration of the urging by the DoD
    Office of Inspector General, the Army suspended the request for proposal until the
    Joint Requirements Oversight Council approved the OICW capability
    development document, which was in final staffing by the Joint Requirements
    Oversight Council. In summary, he stated that the Army believes that the OICW
    Program did not breach any statutory requirements and followed the DoD 5000
    series of guidelines, as appropriate, in the execution and management of the
    OICW Increment I program. Further, he stated that the Army followed best
    business practices and prudent acquisition procedures to ensure that the OICW
    Program is cost-effectively developed in a timely manner to satisfy warfighter
    needs.
    (U) Audit Response. In addition to our response to the Assistant Secretary’s
    previous comments about the “Implementation of Management Controls”
    associated with the Executive Summary and about “Management Control
    Weaknesses” associated with management controls in the Background section of
    the report, we believe that the Army should not only suspend the request for
    proposal until the Joint Requirements Oversight Council convenes, but should
    also suspend or terminate the request for proposal until the program
    documentation, ACAT, and operational requirements issues are also resolved. In
    addition, although the Army may not have breached any statutory requirements,
    issuing a request for proposal before determining the best alternative to meet the
    capability gap, approving requirements, and determining the level of investment
    required by the Department, is neither prudent management nor consistent with
    best business practices.

Director, Program Analysis and Evaluation Comments on
  Finding (U)
    (U) The Principal Deputy Director, Program Analysis and Evaluation stated that
    he concurred with the draft report and all of the recommendations.

Department of the Army Office of the General Counsel
  Comments on Finding and Audit Response (U)

    (U) The Army Deputy General Counsel (Acquisition), Department of the Army
    Office of the General Counsel provided comments on the draft report in which he
    stated that the two Army Deputy General Counsel (Acquisition) opinions, one on
    September 27, 2004, and one on July 11, 2005, were not contradictory. The
    Deputy General Counsel stated that those two opinions addressed two separate
    legal questions and were consistent with one another.

    (U) Army Deputy General Counsel (Acquisition) Memorandum,
    September 27, 2004. The Deputy General Counsel stated that his September 27,
    2004, opinion addressed whether the Army’s requirements for the kinetic energy
    portion of the OICW (XM29) had changed so significantly that a new competition


                                         71
was required. He stated that this question was asked in the context of whether
awarding a production contract would generate protests, and the probable legal
basis for protests. The Deputy General Counsel also stated that the OICW Program
Office contended that the XM8 was a spiral development of the kinetic-energy
weapon described in the OICW operational requirements document and believed
that the OICW always had a requirement to be reconfigured into a stand-alone
kinetic-energy subsystem that used the XM29 target-acquisition and fire-control
system. In addition, he stated that the Program Office asserted that the OICW,
including the XM8, had been competed and that the program could proceed
directly to production without another competition for the XM8 changed
configuration.

(U) The Deputy General Counsel stated that a flaw in the OICW Program Office’s
reasoning was that the OICW operational requirements document focused on the
XM29 with little mention of the stand-alone kinetic-energy subsystem. In addition,
he stated that, in contrast, the OICW Increment I capability development document
focused almost exclusively on a stand-alone kinetic-energy weapon, with limited
discussion of the XM29, which is why his September 27, 2004, opinion stated that
“the OICW capability development document is practically the inverse image of
the OICW ORD [operational requirements document].” The Deputy General
Counsel stated that the XM8 stand-alone kinetic-energy weapon described in the
capability development document was fundamentally different from the stand-
alone kinetic-energy subsystem described in the operational requirements
document. Although the operational requirements document describes a kinetic-
energy weapon that could be separated from the XM25 high explosive airbursting
munition component and used as a stand-alone weapon, the capability development
document describes the XM8 kinetic-energy weapon that not only could be
separated from the high explosive airbursting munition component, but it could
also be reconfigured into four different variants: a carbine, a sidearm, a designated
marksman (sniper) rifle, and a light machine gun.

(U) The Deputy General Counsel stated that, for those and other reasons, he
and his office disagreed with the OICW Program Office’s conclusion that the XM8
program could proceed to production and believed that the changes to the XM8
required a new competition. The Deputy General Counsel stated that:
          If the Army determines to produce the XM8 under the guise of the OICW
          CDD [capability development document], there is a very high probability
          that the decision would be protested. As discussed above, the Federal
          Courts and the GAO [Government Accountability Office] will look at
          whether this XM8 ‘spiral’ was within the scope of the original
          competition, and whether this course of action so materially alters the
          OICW contract that the field of competition for the contract as modified
          would be significantly different from that for the original OICW contract.
          As described above and in the Enclosures, it is clear that the requirements
          established in the OICW CDD are materially different from those
          established by the OICW ORD [operational requirements document], and
          the KE [kinetic energy] weapon described in the CDD would draw a
          different group of competitors (as evidenced by recent Congressional




                                         72
           Inquiries on behalf of their constituents). The CDD’s requirement for a
           stand-alone, configurable KE ‘family of weapons’ should therefore be
           competed.

(U) The Deputy General Counsel stated that the September 27, 2004, opinion
responded to the Army Acquisition Executive’s request for his office’s view on
the issue of scope in the context of fulfilling the requirements of competition and
did not address the question of whether the OICW Program Office was required to
provide notification to Congress of a new start. The Deputy General Counsel also
stated that the question of whether a new start notification was required was raised
by representatives of the DoD Office of Inspector General during a meeting held
on May 27, 2005.

(U) Army Deputy General Counsel (Acquisition) Memorandum, July 11,
2005. The Deputy General Counsel stated that the July 11, 2005, memorandum
discussed in the draft report was an internal product that responded to the question
by representatives of the DoD Office of Inspector General on whether notification
of a new start was required. The Deputy General Counsel also stated that, based
on the facts available at the time, he concluded that notification was not required.
Further, he stated that the September 27, 2004, and the July 11, 2005, memoranda
are completely consistent. The Deputy General Counsel also stated that both
opinions recognize that:

       •   the kinetic-energy weapon described in the OICW operational
           requirements document and the capability development document was
           to be designed to permit reconfiguration into a separate, stand-alone,
           kinetic-energy subsystem that used the XM29’s target-acquisition and
           fire-control system;

       •   the kinetic-energy weapon’s configuration changed from a single rifle
           to a combinatorial “family of weapons,” a requirement that was neither
           contemplated in the operational requirements document nor by the
           original competitors for the OICW; and

       •   the changed requirement for a combinatorial “family of weapons”
           required a new competition.

(U) However, the Deputy General Counsel stated that those opinions did not
mean that a new start notification was required for the reasons expressed in the
July 11, 2005, memorandum. He stated that a new start notification is required
for a “new subprogram, modification, project, or subject” not previously justified
or funded by Congress. The Deputy General Counsel also stated that because the
OICW Program, as previously presented to the Congress, did contain a kinetic-
energy component, he and his office expressed the opinion that additional
notification was unnecessary.

(U) Audit Response. We do not agree that the kinetic energy weapon described
in the OICW operational requirements document and the capability development
document was to be designed to permit reconfiguration into a separate,
stand-alone, kinetic energy subsystem that used the XM29 target-acquisition and


                                        73
            fire-control system. The February 2000 operational requirements document for the
            OICW states that the OICW is a dual weapon system that combines high-explosive
            airbursting munitions, secondary kinetic energy munitions, and a rugged day and
            night, full-solution target-acquisition and fire-control system to affect decisively
            violent and suppressive targets. Further, the operational requirements document
            requires the OICW to be capable of being reconfigured into a separate, kinetic-
            energy, stand-alone subsystem. The operational requirements document also
            requires the OICW target-acquisition and fire-control system to function with the
            OICW kinetic energy subcomponent. The capability development document for
            the OICW Increment I ********************
            ************************************************************
            ******************. Consequently, the OICW Increment I stand-alone
            subsystem would have to be modified at a later date to be capable of combining
            into a dual weapon system in Increment III. Specifically, the OICW Increment I is
            a nondevelopmental item that the Army does not plan to integrate with the day and
            night, full-solution, target-acquisition and fire-control system. As a result, the
            necessary software and controls to operate the target-acquisition and fire-control
            system will not be incorporated into the design of the Increment I materiel solution.
            Therefore, the Army will have to design a new kinetic energy weapon that includes
            the software and controls needed to operate the target-acquisition and fire-control
            system and to complete the integration with the high-explosive airbursting
            component of the OICW, as envisioned in OICW Increment III.
            (U) Based on the Assistant Secretary’s comments, we revised the report to
            state that:
                        (U) In response to the draft report, the Army Deputy General Counsel
                        (Acquisition) stated that the September 27, 2004, and the July 11, 2005,
                        opinions addressed two separate legal questions and are consistent with
                        each other when viewed in their proper context. Further, the Deputy
                        General Counsel stated that the September 27, 2004, opinion was in
                        response to the Army Acquisition Executive’s request to determine
                        whether the Army’s requirements for the kinetic-energy portion of the
                        OICW had changed so significantly to require a new competition; it did
                        not address whether the OICW Program Office was required to notify
                        Congress of a new start. He also stated that the July 11, 2005,
                        memorandum discussed in the draft report was an internal product that
                        responded to a question from the DoD Office of Inspector General on
                        whether notification of a new start was required. The Deputy General
                        Counsel stated that, based on the facts available at the time, he concluded
                        that notification was not required.

            (U) Regarding whether OICW Increment I constituted a new start program for the
            Army, the Army stated that the XM8 modular assault weapon was a new start as a
            spiral development program from the 5.56 millimeter kinetic energy carbine
            portion of the XM29 and was the first increment of the OICW Program as noted
            above in Exhibits P-40 for XM8 Carbine (5.56 millimeter) (G16102), February
            2004 and February 2005.

*
    (U) Predecisional and source selection sensitive data omitted.




                                                        74
Appendix I. Report Distribution (U)

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Network and Information Integration)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Commander, Army Training and Doctrine Command
  Commander, Army Infantry Center
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer Soldier
      Project Manager Soldier Weapons
         Product Manager Individual Weapons
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army Tank-automotive and Armaments Command
Commander, Army Test and Evaluation Command
Deputy Chief of Staff (G-3/5/7)
Deputy Chief of Staff (G-8)
Deputy Under Secretary of the Army (Operations Research)
Auditor General, Department of the Army
Deputy General Counsel (Acquisition)

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force


                                           75
Combatant Command
Commander, U.S. Special Operations Command
  Acquisition Executive, U.S. Special Operations Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       76
___________________________________________________________________



Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments (U)




                             77
___________________________________________________________________




                             78
___________________________________________________________________



Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments (U)




                             79
___________________________________________________________________




                             80
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Pages i
                                                                      through ii




                                                                      Page 1




                             81
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 4
(Note 3
deleted)



Revised
Pages 5
through 6
(Title
changed to
“Managers’
Internal
Control
Program”)




                                            82
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 7




                                                                      Page 8




                             83
               ___________________________________________________________________




Final Report
 Reference




Revised
Pages 8
through 9




Pages 9
through 10




                                            84
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Pages 11
                                                                      through 12




                                                                      Page 12




                             85
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 12




Page 12




Pages 12
through 13




                                            86
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Pages 13
                                                                      through 14




                                                                      Page 15




                                                                      Revised
                                                                      Pages 17
                                                                      through 18




                             87
___________________________________________________________________




                             88
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Pages 17
                                                                      through 18




                                                                      Page 19




                             89
___________________________________________________________________




                             90
___________________________________________________________________



Director, Program Analysis and Evaluation
Comments (U)




                             91
___________________________________________________________________



Joint Staff Comments (U)




                             92
___________________________________________________________________




                             93
___________________________________________________________________



Department of the Army General Counsel
Comments (U)




                             94
___________________________________________________________________




                             95
___________________________________________________________________




                             96
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
John E. Meling
Jack D. Snider
Tracey E. Dismukes
Neal J. Gause
Kelly B. Klakamp
Kevin W. Klein
Jennifer A. Kura
Lidet K. Negash
Deborah J. Thomas
Joyce Tseng
Julie B. Vaillancourt
Jacqueline N. Pugh
